<html>
<title> - [H.A.S.C. No. 110-106] A CONTINUING DIALOGUE: POST-SURGE ALTERNATIVES FOR IRAQ (PART 1 AND 2)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        [H.A.S.C. No. 110-106] 
                         A CONTINUING DIALOGUE: 
                        POST-SURGE ALTERNATIVES 
                        FOR IRAQ (PART 1 AND 2) 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                        JANUARY 16, AND 23, 2008

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
  
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-900 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































































               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Lorry Fenner, Professional Staff Member
                    Sasha Rogers, Research Assistant
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member









































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, January 16, 2008, A Continuing Dialogue: Post-Surge 
  Alternatives for Iraq (Part 1).................................     1
Wednesday, January 23, 2008, A Continuing Dialogue: Post-Surge 
  Alternatives for Iraq (Part 2).................................    61

Appendixes:

Wednesday, January 16, 2008......................................    25
Wednesday, January 23, 2008......................................    93
                              ----------                              

                      WEDNESDAY, JANUARY 16, 2008
    A CONTINUING DIALOGUE: POST-SURGE ALTERNATIVES FOR IRAQ (PART 1)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     1
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Hamre, Hon. John J., President and CEO, Center for Strategic and 
  International Studies..........................................     2
Keane, Gen. Jack, (Ret.), Former Vice Chief of Staff and Acting 
  Chief of Staff of the Army, U.S. Army..........................     5
Kojm, Christopher, Professor of the Practice of International 
  Affairs, Elliott School of International Affairs, George 
  Washington University..........................................    11
McCaffrey, Gen. Barry, (Ret.), U.S. Army, President, BR McCaffrey 
  Associates.....................................................     8

                                APPENDIX

Prepared Statements:
    Akin, Hon. W. Todd...........................................    32
    Hamre, Hon. John J...........................................    35
    Snyder, Hon. Vic.............................................    29

Documents Submitted for the Record:
    Memorandum, After Action Report--General Barry R. McCaffrey 
      USA (Ret) Visit Iraq and Kuwait 5-11 December 2007.........    41
    The Christian Science Monitor, December 13, 2007, Here's the 
      Surge Iraq needs, The US can still stabilize Iraq--if it 
      steps up its efforts by Christopher Kojm...................    52

Questions and Answers Submitted for the Record:
    Mr. Davis....................................................    58
    Dr. Snyder...................................................    57
                              ----------                              

                      WEDNESDAY, JANUARY 23, 2008
    A CONTINUING DIALOGUE: POST-SURGE ALTERNATIVES FOR IRAQ (PART 2)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............    62
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................    61

                               WITNESSES

Biddle, Dr. Stephen, Senior Fellow for Defense Policy, Council on 
  Foreign Relations; Dr. Andrew F. Krepinevich, Jr., President, 
  Center For Strategic and Budgetary Assessments; Col. Lawrence 
  B. Wilkerson, U.S. Army (Ret), Former Chief of Staff to Former 
  Secretary of State Colin Powell, Visiting Pamela C. Harriman 
  Professor of Government, College of William and Mary; Michael 
  Eisenstadt, Director, Military and Security Studies Program, 
  The Washington Institute for Near East Policy beginning on page    62

                                APPENDIX

Prepared Statements:
    Akin, Hon. W. Todd...........................................    99
    Biddle, Dr. Stephen..........................................   102
    Eisenstadt, Michael..........................................   133
    Krepinevich, Dr. Andrew F., Jr...............................   113
    Snyder, Dr. Vic..............................................    97
    Wilkerson, Col. Lawrence B...................................   124

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
    A CONTINUING DIALOGUE: POST-SURGE ALTERNATIVES FOR IRAQ (PART 1)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Wednesday, January 16, 2008.
    The subcommittee met, pursuant to call, at 2:04 p.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Gentlemen, we 
appreciate you all being here. You are old friends to this 
committee and to this town and to your country. We appreciate 
your service. I have a written statement that I actually was 
looking forward to delivering with great gusto, but I think I 
will pass on that. I am not sure exactly what our voting 
schedule is, and we may try to get your opening statements in, 
at least if we were to have some votes. But we should have 
plenty of time this afternoon to do the kind of discussion we 
want to have.
    Mr. Akin and I decided, back at the end of June, early 
July, that we wanted to do a series of hearings on the way 
forward in Iraq. And after having done four of those hearings 
back in July, it occurred to me over the break that once again 
it was timely to do that. The one thing you can predict about 
war, is they are unpredictable, the situation changes and we 
want to hear your-all's opinion. Some of you we have heard from 
before, and some we have not. And we look forward to that 
discussion today. There is no question that Presidential 
election years are not necessarily the best time to discuss the 
nuances of significant issues, but obviously the situation in 
Iraq is of absolute importance to this country and our national 
security, and those kinds of discussions that get into the 
details of national security policies must occur. And with 
that, I would like to hear any comments Mr. Akin would like to 
make and then I will introduce our panel.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 29.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Dr. Snyder. And welcome, again, to our 
witnesses. It is a nice situation to be in here. We were here a 
year ago and everybody was very pessimistic. We had solicited 
testimony from every expert, or non-expert in Washington, or in 
I don't know how many hundred of miles around and we got some 
kind of interesting ideas. We were looking for ideas. But it 
was sort of a generally pessimistic sense as to what we could 
do in Iraq. And some of you, of course, were not part of that 
pessimism, but by and large, it was. Now a year later, we have 
seen a turnaround that is probably more significant than 
anybody would have even dared to have hoped for hardly.
    Yet in spite of that, there are continuing challenges and 
there are ways that we should be taking advantage of the good 
situation to try to improve it even more. So I hope that your 
testimony will focus on the additional steps that we could take 
and how we can prove what General Keane particularly, we thank 
you, is a voice of encouragement last year and maybe more 
encouraging this year. I hope you are not discouraging anyway. 
But we think that things have gone very well and are very 
interested in now, where do we go and how do we continue? Thank 
you all for joining us. And I appreciate, Mr. Chairman, your 
scheduling these set of hearings. I think that we have had some 
very interesting subjects and this is another good one.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 32.]
    Dr. Snyder. Without objection, any formal opening statement 
by Mr. Akin and myself will be made a part of the record. Any 
written statement you will provide to the committee will also 
be made a part of the record. We are pleased to have with us 
today, General Jack Keane, retired Army, Former Vice Chief and 
Acting Chief of Staff of the Army; retired General Barry 
McCaffrey, who is now the President of the BR McCaffrey 
Associates; Dr. John Hamre, President and CEO of the Center For 
Strategic and International Studies; Mr. Christopher Kojm, the 
Director of the U.S. Foreign Policy Summer Institute at the 
Elliott School of International Affairs at George Washington 
University. What I think we will do is we will begin with 
General Keane and go to General McCaffrey and then Dr. Hamre. 
Oh, Dr. Hamre first.
    Dr. Hamre, we will go with you first. And I guess we will 
just march down the line then. We have some votes that will hit 
us at some point, but we may well get your-all's formal opening 
statements in and even get to some questions. As you know, it 
is unpredictable. We will start with you, Dr. Hamre. We will 
put the clock on for 5 minutes, but it is not a hard 5 for you-
all, just to give you an idea of where you are. And if you are 
still going strong, keep going.

STATEMENT OF HON. JOHN J. HAMRE, PRESIDENT AND CEO, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Hamre. We will easily make it for that. I think I get 
to go first because I am the heaviest physically and I 
appreciate that. Thank you for inviting me to come back, 
especially to join my colleagues. These are men that I have 
worked with and admired for a very long time, and it is a 
privilege to be with them, and of course here before you. I 
think I was asked to come because I was involved with and the 
Center for Strategic and International Studies (CSIS) was 
involved with the Jones Commission. We were asked by the 
Congress to send retired military officers and police chiefs to 
Iraq to assess the capability of the Iraqi security forces, and 
we were there during the summer, came back and reported to the 
full Armed Services Committee in September, and I will say I 
have not been back since then.
    So my observations are constrained by the personal 
experiences I had at that time. But I have stayed in touch with 
people who are there, friends who are there and other 
delegations that have gone. So I may be able to offer a bit of 
help to the committee today. Let me just summarize what we--
what we said in the Commission report, just very briefly. First 
we said there was real progress, we could see real progress at 
the time. It certainly has picked up enormously since we were 
there. But there was genuine progress on the ground, especially 
in Anbar province, you could see it.
    Second we saw there were no shortage of Iraqis who were 
prepared to join the Army or the police forces. There were--
people were not a problem. It was really getting them trained 
and getting a leadership cadre was the challenge. And we went 
around and saw the training establishments, and I must say I 
was impressed. I thought we saw genuine command and leadership 
credibility among the trainers and these were Iraqis. So that 
was good. It was still in the startup phase, but it was 
positive. We thought that--you know, the Iraqi, I should say 
the Iraqis were confident that they could take greater control 
of their security. The defense minister told us flat out we can 
take care of internal security by next summer. Yesterday or the 
day before, he has revised that. He has shifted that date back 
and he is now saying 2012. Our people felt he was a little 
optimistic last summer. But nonetheless, there was a genuine 
sense that they can do more and we ought to let them do more. 
And I will come to that in just a moment.
    We saw the training of the police and we saw the police--
there are four different police elements in the country, the 
provincial police, that is the bulk of the police. There are 
national police, a small cadre, really a paramilitary force 
largely in Baghdad. There are border police and then there are 
kind of highway traffic patrol type police. The ones that 
really matter for our purposes here, it is the provincial 
police and it is the national police. We judged at that time 
that there was genuine progress on the provincial police and we 
saw the training for them. Uneven leadership. Where there was 
good leadership, they did well. Where there was weak 
leadership, they didn't do well. But it was starting to get 
better.
    National police was a problem, frankly, and we said in our 
report that we thought they were beyond real repair that they 
needed to be disestablished and rebuilt in a different 
direction. Now the Iraqi government really hotly protested 
that. They disagreed with us sharply. They were quite deeply 
riven by sectarian elements very much seen as being a Shi'a 
force and we didn't feel it would be productive. We gave 
recommendations on how they could be retooled, use them in a 
different capacity.
    Sixth, we said that the interior ministry was a major 
problem. The interior ministry was dysfunctional. And now 
again, this is a hotly disputed finding on our part and the 
Iraqi government claims quite to the contrary that it is not. 
But I think there are still serious problems in the interior 
ministry that we need to tackle.
    Seventh, we concluded that the Iraqis could do more if we 
would let them do more. I noticed a very interesting phenomena 
when I talked to, you know, field grade officers, majors and 
lieutenant colonels, majors and captains and lieutenant 
colonels and said, you know, what is your view? I heard the 
same all the time. They could do more if we would let them. 
Usually general officers said they would take a long time. But 
field grade officers that were close to them said they could do 
more. And I think it was our view they could do more.
    Indeed, if we do it for them, they will let us. If we 
insist that they do more of it, they will stand up. And things 
they want to do, they do. And they are able. For example, they 
make payroll every two weeks. And it is not a pretty process, 
but they get it done. And so it was our view they could be more 
effective and could do more if we let them do it.
    Eighth, we concluded there was no progress on the political 
reconciliation. This was in September. And I think that is 
still a major problem. Now, we are building--we shifted our 
concept. We spent four years trying to create a central 
government and then have that government reach out and provide 
control over the country. That hasn't worked. What we have been 
doing during the last year is to build security up from the 
ground level and the provincial level and that is working. But 
what happens if you build that competency at the ground level 
and you are not able to build a central government that has 
credibility and authority? We will be in trouble.
    So now let me just very briefly say with that as a 
threshold, what can I offer the committee now? Certainly the 
surge has contributed to a much better environment. But it is 
not just the surge. I mean, I think there are two other factors 
which we don't appreciate. One, is we have put 100,000 more 
cops and Army--Iraqis on--out on the beat. And that has made a 
big difference. They have become more competent and a better 
force. I think that is a major factor. The second factor is we 
have basically recognized the Sunni militia as a de facto 
police force and that is something we had resisted for a long 
time.
    So there is a lot more Iraqi security presence on the 
ground at the same time we were doing the surge. Now, the surge 
it was a good idea and it has--we have created a security 
concept at work. So we have to say that is the starting point 
for, I think, the success that we can register this year. I 
think we can pull troops out this year. I think the plan we are 
on can work. I think we will build up enough Iraqi capabilities 
so it will compensate for us being able to pull out probably 
5,000 a month. I think that is a path that we can and should 
stay on. We should put more of the burden on the Iraqis for the 
security. And then finally the economy is still a great 
problem, huge amount of unemployment in Iraq.
    And, of course, the security situation has been a major 
factor for that. Hopefully greater security will provide more 
economic opportunity and you see it in the north. You see it in 
Kurdistan. Things are really moving remarkably better, it is 
starting to pick up in the south, starting to. So economic 
boosting the economy will be an enormous thing we do. And 
frankly, our developments--our efforts have not been very 
effective. Partly because of the security, partly because we 
didn't have very coherent plans. Finally, let me say, we do 
need to find a way to encourage greater responsibility by the 
Iraqis. We have to give them and lead them to taking a larger 
role, and I think that is, in part, our pulling back and part 
of what we have to do during the year. Let me stop and turn to 
my colleagues.
    [The prepared statement of Dr. Hamre can be found in the 
Appendix on page 35.]
    Dr. Snyder. General Keane.

  STATEMENT OF GEN. JACK KEANE, (RET.), FORMER VICE CHIEF OF 
     STAFF AND ACTING CHIEF OF STAFF OF THE ARMY, U.S. ARMY

    General Keane. Mr. Chairman, members of the committee, 
thank you for inviting me to participate again in discussions 
about Iraq. And I am honored to do that with my colleagues at 
the table, particularly Secretary Hamre and General McCaffrey, 
both of whom I have worked with and known for years and I just 
have tremendous regard for. If I can indulge you, I have got 10 
minutes of statement here. And I will get to it. A year ago 
this month, the President announced what was a very unpopular 
decision based on a harsh reality, that the strategy in Iraq 
had failed, that Iraq was spinning out of control with an ever 
increasing level of violence, that a new government less than a 
year old was about to be fractured, that the consequences of 
failure in Iraq were unacceptable and that the only course of 
action was to conduct a counteroffensive soon to be called 
surge, and that action remained the only viable action to gain 
security as a necessary precondition for political and economic 
progress.
    As such, the military strategy was changed to use proven 
counterinsurgency practices, which means protect the people 
where they live and a new team, General David Petraeus and 
Ambassador Crocker were put in place to implement it. Troops 
began arriving next month in February and they completed their 
deployment in June. After all the troops were in place, the 
violence began to go down. So much so that it has fallen 
dramatically over 60 percent in all major categories. This is a 
stunning achievement and credit to General Petraeus and General 
Odierno and their magnificent troops. To those who say, well, 
of course, you add more troops, particularly American troops, 
the violence will go down.
    That misses the essential point. We had surged three times 
before, albeit with less troops, with no long-term success. It 
is a combination of proven counterinsurgency practices, in 
other words, a new strategy, yes more troops and also brilliant 
leadership which has made the difference. We have never, ever 
before taken on defeating the counterinsurgency directly. In 
the past, we had left that up to the Iraqis to do and that is 
why the change of mission and the strategy is so critical to 
the success. General Petraeus asked me to look at the situation 
in February as the troops were arriving. I did and I did a 
number of times after that.
    But back in February, I confirmed that my analysis, 
something I had already known that we really needed eight 
brigades to surge, not five. But they were not available. So 
how these troops were used also very dramatic. The leaders' 
intellectual flexibility and tactical agility maximized the 
troops we had and made the sum much greater than the parts. 
This is a remarkably successful military campaign which has 
broken all of the previous paradigms of counterinsurgency and 
regardless of what we view here, this will be studied for years 
in my view. A little over six months after the surge forces 
were complete, the Iraqis passed a major piece of legislation 
last Saturday, the de-baathification law. This actually is the 
justice and accountability law. But I think for our 
identification, that is the proper term. Despite our impatience 
and many frustrations with the Iraqi political system, in this 
new fledgling political culture, it is a remarkable achievement 
in such a short period of time for them. More must be done, it 
will be challenging, but I am convinced more will be done.
    The Iraqis are already proving their willingness to change. 
They have implemented the following without codifying it into 
law because the executive branch knew how important it is. One, 
sharing oil revenues with the provinces; two, purging sectarian 
extremists from positions of authority; three is hiring Sunni 
volunteers for security forces and also in the civilian 
ministries; and four, making major improvements in the legal 
and justice system. Eventually, these will be codified into 
national legislation just as the de-baathification law did. But 
they deserve the credit for implementing it beforehand.
    With the dramatic improvement in security, and the 
beginning of real political and economic progress, where do we 
go from here? May I suggest at the outset that the alternative 
strategy in Iraq is already in place. It is operating and it is 
succeeding. I have got 10 short points to make: One, security. 
We must sustain and build on the gains that we have made. We 
have taken out 25 percent of our combat forces this year based 
on the stress and strain that is on the military, the Marines 
and the Army to be specific, and General Petraeus and General 
Odierno's empathy of that situation and they have looked at it 
and they have determined it an acceptable risk. That will be 
completed in July. The fact is that no one knows to include 
General Petraeus or General Odierno what the impact of a 25 
percent force reduction will be. But we are going to find out 
eventually.
    Therefore in my view, we should make a realistic assessment 
after we complete that reduction in July and determine the 
consequences of that. And I think that would take four to six 
months for us to be able to do that accurately. To those who 
say we should reduce further beyond the 25 percent because of 
our success or because of our frustration with the length of 
involvement, my response to that is it is an unacceptable risk. 
We should not squander the gains that we have made. To do that 
is a repeat of past failures where we planned for unrealistic 
reduction based on what? Our underestimation of the enemy and 
second our overestimation of the Iraqi security force's 
capacity level.
    We have been there before and it has not worked. When 
General Petraeus testifies in April, the emphasis should be on 
how do we sustain the gains that we have made, not on how fast 
we should withdraw. Of course, we will withdraw our forces 
eventually as we should. But it must be based on the conditions 
on the ground. That is a powerful lesson that we should not 
relearn. It is safe to assume that we would reduce our forces 
further in 2009, but equally important, if we meter this right, 
violence and casualties will continue to go down significantly, 
and in my view, Iraq will be much less of a concern to the 
American people as a result of that.
    Number two, continue the current military strategy and this 
is important. Our protecting the people. We cannot pull away 
from them. Because if we encourage the extremists, if we do, we 
are going to encourage the extremists both Sunni and Shi'a and 
the criminals to escalate the level of violence. Three, 
continue to grow, develop and build the Iraqi security forces. 
The Army will double in size. 100,000 have been added this 
year. And our training teams are crucial to their success. The 
national police, who I recommended to General Petraeus last 
year be disbanded, are actually finally making some progress. 
And I think General Petraeus will provide evidence of that when 
he comes in April.
    General Hussein, who is in charge, is a tough, competent 
leader. He has fired every brigade commander, all nine of them, 
and 17 of the 27 battalion commanders. Four of five of those 
brigades are finally starting to show some progress and get rid 
of the sectarianism, and also show some competence much to all 
of our surprise, and that is good news.
    Number four, transition control to the Iraqis as they 
demonstrate a capacity to be successful. I mean, that is self-
evident. But it is already happening in the south and it is 
already happening in the north. In 2008, we will do that in 
Anbar province and we will do it in certain areas within 
Baghdad. And obviously, as those conditions become available in 
other places, that transition control will continue.
    Number five, encourage the government of Iraq to accept 
more of the concerned local citizens group into the security 
forces after they are properly vetted. They number now a 
staggering 70,000, which is very significant, but they can do 
more in terms of accepting more.
    Number six, continue to assist the government of Iraq to 
pass the remainder of the legislative benchmarks. Recognize 
while the benchmarks are important, they are only the first 
steps for the Iraqis in resolving their differences through the 
political process, versus violence, to those who say we must 
reduce our forces immediately to force the Iraqis to complete 
the political process, my response is that the template--that 
template is harmful and does not fit the reality in Iraq. Quite 
the contrary, those who know the key leaders in Iraq believe 
with conviction that it is our presence that has helped the 
Iraqis to move this political process. Immediate withdrawal 
actually caters to their fears and paranoia, that they will be 
left to deal with the extremists themselves. It forces them to 
do the opposite of what we are intending. Instead of political 
process and progress, they will pull back from that and that 
impact will be very significant. What they will do is pull back 
and develop a bunker mentality to defend themselves. It invites 
a return to sectarian violence, extremism and civil war.
    Number seven, assist the Iraqis in providing provincial 
elections in 2008 and the general election which is planned for 
in 2009. Out of that, a much stronger political system in my 
view is on the way. We have to hold them to it. Number eight, 
Iraq is improving economically. While unemployment is much too 
high, staggeringly too high, it is improving. Utilities are 
improving. Micro loans for small businesses are on the rise. 
Iraqi currency, much to everyone's surprise, is in pretty good 
shape and the government has a budget. And this legislative 
body should be aware of how tough it is to get a budget out; it 
is no small task for them and they have succeeded.
    And, of course, much more is needed. As the security 
situation improves, we must encourage foreign investment and 
free trade. And number nine, we must enter into a long-term 
security relationship with Iraq. The groundwork for this has 
already begun. First, we must resolve the internal security 
situation we are facing, then transition the Iraqi security 
forces to external defense. This will involve a much reduced 
force on our part and will be executed initially, in my view, 
with much less casualties and eventually with no casualties 
because Iraq will be stable.
    And ten, more must be done to look at Iraq regionally with 
its neighbors who can assist with the further growth and 
development of Iraq, a stable Iraq is in everyone's interest in 
the region to include Syria and Iran.
    So in conclusion, yes, I am hopeful about the future in 
Iraq. We have many challenges to be sure. The future is not 
certain. There will be frustrations there to be sure as well. 
But we have a very real opportunity to succeed and achieve in a 
stable government in Iraq. Capable of protecting its people and 
providing a quality of life experience for the Iraqi people. 
This could only be accomplished with the generosity and 
sacrifice of the American people, the courage and sacrifice of 
the Iraqis, and the truly magnificent selfless service and 
sacrifice by our troops and their families. Thank you and I 
look forward to your questions.
    Dr. Snyder. General McCaffrey.

     STATEMENT OF GEN. BARRY MCCAFFREY, (RET.), U.S. ARMY, 
               PRESIDENT, BR MCCAFFREY ASSOCIATES

    General McCaffrey. Well, Mr. Chairman, let me thank you and 
the members of your committee for the opportunity to be here. I 
am delighted to join this panel. Dr. John Hamre and General 
Keane and I have worked together for years. I have tremendous 
respect for them and I have read a lot of Chris Kojm's work to 
boot. I provided each member of the committee a report from my 
Iraq visit. I just got back prior to Christmas as is my custom. 
I spent about a week there. I went throughout much of the 
country. I spent most of my time focused at lower level 
province and below. Talking to both Iraqi police, military and 
U.S. military leadership. And perhaps those observations--and 
also accompanied Wall Street Journal op ed to try to summarize 
the findings will be helpful to you.
    Let me, if I can, lay down some general themes, and I look 
forward to responding to your own interests. Number one, it is 
clear to me that the situation in Iraq has changed like night 
and day. So the debate has to move forward and not talk about 
whether that is true or not, but instead, understand what are 
the plausible explanations to why that change has occurred, and 
therefore, are they sustainable or what will happen if we 
withdraw in the coming years? But I think any objective 
measure, principally measures the violence, kidnapping, murders 
and attacks on U.S. forces, attacks on Iraqi forces, you name 
it, the situation is remarkable. I spent a day with an infantry 
brigade in Baghdad during the so-called surge into the city. 6 
million Arab people took 80 killed, 600 hundred wounded 
regaining control of their piece of ground. The day I was in 
Baghdad in that entire city, there were two violent incidents 
that day. I rode around, spent a day in Ramadi, which was 
constant gunfire, 24 hours a day, and the last visit and this 
time around, there were no violent incidents in Anbar province 
the day I was out with the Marines and the Army forces. So the 
situation changed. That is not to imply there aren't still just 
under 3,000 attacks per month still against coalition allied 
forces or civilians. There is still a civil war going on but it 
is one changed environment.
    Second observation, I think the political dynamics are 
dramatically changed, not clear we understand it, and that is 
the principal reason behind much of the change. It is not to 
deny the cards--the excellence of U.S. and Iraqi security 
force, but it is clear as you look at the Sunni, I think the 
bottom-line to me was they just woke up, they said my God, 
these people are leaving, we will be left a minority of the 
population, 16, 20 percent of Iraq to the mercies of the people 
we cruelly exploited for the last three decades, they rushed to 
join the police, the Army, Baathists, two star intel generals 
became province police chiefs in Anbar.
    So the Sunnis got scared and started to engage. The spinoff 
of that was these concerned local citizens who are primarily 
Sunni, but is now being extended to Shi'a areas south of 
Baghdad. So suddenly you have got 60-, 70,000 people with AKs, 
guarding their neighborhood and their community. The Kurdish 
situation north, I think the Turkish threat to them may have 
been helpful where they suddenly got--were reminded of the 
notion better to be part of an Iraq federation--an Iraqi state 
than to be a target for the powerful Turkish military.
    And then finally, the Shi'a, for a variety of reasons--
again, I am not sure we totally understand it. It is clear that 
the ceasefire which--the generating factor was the humiliation 
of Mr. Sadr and his forces during their outrage against Shi'a 
pilgrims in the south. But nonetheless--and his personal fear 
probably of being killed by U.S. Special ops or captured. There 
is a ceasefire. To some extent, it is holding. And so the level 
of violence went down. The political dynamics are quite 
different. Al Qaeda in Iraq (AQI), this is a strong statement, 
one the military is not willing to make. U.S. special operation 
forces Stan McCrystal and Joint Special Operations Command 
(JSOC) have tactically defeated AQI in Baghdad and Anbar 
province.
    They are killing them faster than they can generate 
leadership. It is the first time in the history of warfare I 
have seen that happen. It is a combination of unbelievable 
intelligence, forensic police investigation, tremendous intel 
input from the Iraqis and some of the most ferociously talented 
special ops people we have ever introduced. That is not to say 
they can't respond with an outrage or that their operationally 
or strategically no longer a factor. They moved up into Diyala, 
they moved up around Mosul. They are in the deserts out in the 
western frontier. They are still there, but tactically it has 
been appalling to them what we did to them.
    The State Department dialogue, it changed the nature of the 
situation. There is an ongoing--Dr. Rice has an ongoing 
outreach to the Iranians and the Syrians. To some extent, it 
may be that they are responding. It may be that there is less 
active Iranian support for Shi'a attacks on U.S. forces. 
Clearly, the number of border crossers has gone down 
dramatically. The ones who are crossing the border, the 
overwhelming majority are dead within 4 weeks, either because 
they ineffectually, in general, conducted suicide attacks or 
they have been policed up by Iraqi security forces or U.S. 
military forces. And then finally I think Jordan, Saudi Arabia, 
Turkey are now being engaged, now more supportive toward the 
general goal of not having us withdraw, leaving chaos in Iraq. 
Bottom-line, we have still got problems. The Maliki government 
is largely dysfunctional. There is reason to believe provincial 
district municipal government is starting to become connected. 
The Army and police have been reenergized. The police who are 
still modestly corrupt, ineffectual, badly equipped and not 
reliable.
    Nonetheless, I think there is eight of nine new brigade 
commanders, a massive retraining program, new commitment 
showing up and a lot of U.S. military mentorship. Not to be 
discounted, the nature of the leadership on the ground. General 
David Petraeus and Ambassador Ryan Crocker, the two of them 
have--and I would agree totally with General Keane's comment. 
It wasn't five additional brigades to get to 21 for 5 months. 
It was a drastically different tactical application of 
counterinsurgency tactics combined with smart diplomacy. In the 
background, the new Secretary of Defense, Bob Gates, I think 
has changed the climate to one of pragmatism and focus on 
outcomes, thank God we have him in the last year of this 
administration in charge of trying to direct the interagency 
debate.
    We have got some other problems. The U.S. Army can't 
sustain the current strategy. Our manpower is inadequate. 
Article I of the Constitution, that is the Congress's job to 
raise and support an Army and Navy and provide for a national 
defense. Manpower is off. The quality of recruiting and 
retention is a huge challenge to us. I think 10 percent of the 
soldiers coming into the Army shouldn't be in uniform. We do 
that too long, we will regret it. They will become sergeants. 
We are losing our hotshot young officers and midcareer NCOs in 
too high a number. Our equipment is broken and the Army and the 
Marine Corps and special ops are underresourced.
    Finally--and I provide you one other handout. I would be 
remiss in not reminding all of us that the $12 billion a month 
campaign that has run 34,000 killed and wounded is largely not 
supported by the American people and has affected one other 
aspect of the national defense: Our technological modernization 
in particular of global air power. And, you know, it is hard 
for us to say this in public. We don't want to create and reset 
a battle for us that is capable of fighting Iraq, better minus 
Mr. Rumsfeld. Instead, we want to look out 15 years and say 
what are the new challenges and how do we deter mischief on the 
Pacific rim with a world class air and naval force to prevent 
war in the next generation. I think we have sadly misjudged 
this and not database our job in that area.
    Mr. Chairman, again, I thank you and your committee members 
for what you have done to sustain a strong national defense and 
I look forward to responding to your questions.
    Dr. Snyder. Thank you, General McCaffrey.
    We have been joined by the chairman of the committee, 
Chairman Ike Skelton from Missouri. Mr. Chairman, do you want 
to say anything?
    Mr. Skelton. Only that this is a very distinguished panel.
    Dr. Snyder. I think we had better do our recess now for the 
series of votes that we have, Mr. Kojm. Otherwise, your are 
going to see members impatiently looking at their clock and not 
giving you the time you need. This is a longer break than we 
would like it to be. I think we will probably be close to 40 to 
45 minutes. I apologize for that. It is just the nature of the 
game. The staff will be happy to help you with any thing you 
need in terms of a private room or fresh ice water, whatever 
you need. We will be in recess.
    [recess.]
    Dr. Snyder. The committee hearing will resume. Gentlemen, I 
apologize for the delay. Part of, I guess, your seasoning and 
your professional careers, you have probably all been through 
this before. But that was one of those six-vote ones with some 
debate in the middle. Mr. Akin, our Ranking Member, said it was 
okay for us to go ahead. I think he had something else he had 
to run to.
    Mr. Kojm, your opening statement, please.

  STATEMENT OF CHRISTOPHER KOJM, PROFESSOR OF THE PRACTICE OF 
INTERNATIONAL AFFAIRS, ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, 
                  GEORGE WASHINGTON UNIVERSITY

    Mr. Kojm. Thank you. Mr. Chairman and members of the 
committee, it is a distinct honor to appear before you today. 
The distinguished witnesses who have already testified have 
spoken in detail to the military situation and I cannot add 
very much to their eloquent testimony.
    Where I would like to begin is with a slightly different 
question, picking up really on point 10 that General Keane 
mentioned. The most important question before us now is how to 
take advantage of this lull in the fighting on behalf of 
securing peace and stability in Iraq. Not a moment should be 
wasted in pressing for political reconciliation. Reconciliation 
is the only sure way to end all the violence, end the violence 
in Iraq.
    Now, Iraqis cannot achieve reconciliation on their own. Too 
much blood has been shed. Bitterness is deep. And despite the 
best efforts of the United States, we, by our own actions, 
cannot achieve such reconciliation for them. We have influence 
with many parties in Iraq, but not all parties, and attitudes 
toward the United States are fairly well set in Iraq, FIVE 
years on. Many view us as friends and partners. The leaders, 
especially, many in Iraq, still view us as occupiers.
    Political reconciliation in Iraq requires not only our 
efforts, but a strong, vigorous, determined effort by the 
international community. The United States can help start such 
an effort. American backing for it is essential, but success 
requires an international effort, preferably led by the United 
Nations, with the strong involvement of all of Iraq's 
neighbors. Why? Because all of Iraq's neighbors share an 
interest in peace and stability in Iraq. They do not want Iraq 
to export its violence. They do not want more refugees.
    All of Iraq's neighbors oppose the breakup of Iraq. All of 
Iraq's neighbors support the unity of Iraq. All of Iraq's 
neighbors see the need for political reconciliation as the key 
to stability in Iraq. Iraq's neighbors will be there until the 
end of time. American forces will not. Therefore, any effort to 
create enduring capability must engage Iraq's neighbors on 
behalf of reconciliation and a settlement they can support.
    While Iraq's neighbors share this interest in peace and 
stability, as I have said, they disagree, of course, on many 
other questions. That is why a diplomatic effort simply cannot 
be left to Iraq's neighbors. A strong international diplomatic 
effort is required to find common ground. An effort backed by 
the United States can help galvanize Iraq's neighbors in 
support of stability in Iraq. But let me repeat: The United 
States cannot do this alone.
    What constitutes reconciliation? Reconciliation is 
certainly a long process. The recent law on de-Baathification 
is a good step. It is a first step. Whether this law is 
meaningful remains to be seen.
    Implementation--here I agree with the administration 
certainly--implementation based on a spirit of inclusion will 
make it meaningful. Implementation based on a spirit of 
exclusion will make it meaningless.
    This current moment of hope in Iraq will fade unless Sunnis 
see a future for themselves in the life of their country. The 
de-Baathification law holds out the hope that a significant 
number of Sunni leaders and former military and police and 
government employees can be brought back into government in 
meaningful ways. But this new law is only a first step.
    And I agree with the other distinguished witnesses that we 
also need a chance for Sunnis and all Iraqis to vote for their 
own elected representatives at the provincial level. We need an 
oil law. All parties need to share in Iraq's oil wealth. There 
needs to be a negotiated outcome for the future of Kirkuk. The 
current moment is one of possibilities and hope if we take the 
steps to make it so.
    We are seeing tantalizing signs of new political alignments 
in Iraq between Sunni leaders and Shia nationalists on behalf 
of a united Iraq and on behalf of reconciliation. We see the 
start of dialogue between Sunnis and Kurds. We see an olive 
branch from Abdul Aziz Hakim toward the Sunni awakening.
    The time is ripe for dialogue and intense diplomatic 
engagement not only by the United States but by the 
international community with complete American support. 
Otherwise the current lull in violence, as important and 
significant as it is, will just be a time-out in an unfolding 
sectarian war and a future Iraq made up of gangs and warlords. 
This is not the future Iraqis want, but it is the future they 
will get if successful military tactics and progress are not 
matched with comparable intensive efforts at political 
reconciliation.
    I want to close by saying a word about refugees, a subject 
that is far too often not discussed at the policy level. 
Reconciliation and stability in Iraq absolutely requires 
addressing the plight of refugees and internally displaced 
persons. Those who have fled Iraq are running out of money. 
They lack access to schools and medical care. Those inside lack 
almost everything. They are in a daily struggle for survival. 
This is no small problem. This is one out of every seven 
Iraqis, 4-1/2 million people, who have been forced from their 
homes because of violence.
    We are spending over $10 billion a month in Iraq. The total 
request for humanitarian assistance in Iraq for the current 
fiscal year is $240 million, less than a day's worth of costs 
for the war. This great country with its long tradition of 
humanitarian relief can and must do better by the Iraqi people 
not simply out of altruism, although that is necessary too 
here, but because it is vital to the future stability of this 
country.
    The last thing the region needs, the last thing Iraq needs 
is anotherlarge and bitter exile community akin to that created 
in 1947, 1948. Tolerable outcomes for the United States and 
Iraq are still possible if we use all of the tools of national 
power, and my distinguished counterparts here have spoken, 
certainly, of the importance of military power and what it has 
accomplished. I would simply flag for you, as I appear before 
your committee, that we need to use all the tools of national 
power--certainly diplomacy among them--on behalf of national 
reconciliation, building regional stability, and helping the 
Iraqi people. Thank you.
    Dr. Snyder. Thank you, Mr. Kojm.
    Thank you all for your opening statements, your very 
thoughtful statements.
    I meant to mention also in addition to the voting schedule, 
as you know, we have had this issue with the defense bill. It 
is on the floor right now, and so Mr. Skelton planned to spend 
considerable time with us, as did other members, but they are 
on the floor with the debate on the defense bill. We will put 
ourselves on the five-minute clock here and I will begin with 
questions.
    The first question I want to ask is--I think I will direct 
it to our military folks--as you all look ahead, you are 
pleased with the direction things are going. But as you see the 
size of the American force in Iraq going down, do you at some 
point anticipate some kind of formal decision in terms of what 
activities those forces should be engaged in?
    This is a discussion that I think began last year. When we 
first came back we had that discussion, it would be limits. And 
I sat down with a pen and pencil and realized, well, that 
wouldn't be much of a limitation because you could have tens of 
thousands of troops to guard U.S. civilians.
    So as you all look ahead, is that a practical way of 
looking at the use of U.S. forces as the numbers come down, 
that they would be restricted in certain kinds of activities?
    General McCaffrey. Let me if I may--I know General Keane 
has an informed view on this. One of the things that has 
concerned me from the start--and I don't see this in any way, 
in a confrontational way--is that Washington not try and drive 
tactics and operational decisions in Iraq. There is a 
legitimate strategic argument, I would suggest, for the next 
administration to tell the military commander, joint commander 
on the ground, I want you to get down by half your forces. At 
which point I would expect the military commander to come back 
and say, if that is your constraint on me, here is what I will 
do with them. But I would be really reluctant--by the way, some 
of the suggestions have been completely asinine--we are going 
to instruct you to go to the borders and guard the borders. 
That is not where the war has been. It is a civil war inside 
Iraq. Why we assume we can guard thousands of kilometers of 
Syrian frontier, Iranian frontier, Turkish frontier, when the 
threat is inside Iraq to a large extent.
    The other thing I have said is, be careful, don't you dare 
go to a force--largely suggested by the Baker-Hamilton report--
in which there is a modest, tiny, combat presence and we will 
be out of the political eyesight of the American people because 
we will be doing embedded training and intel and logistics and 
air power, because I honestly believe the theater is too 
dangerous to not have a substantial combat presence on the 
ground. The number I jerked out of my own judgment was seven 
combat brigades. Go below that, get out of Iraq except for a 
Marine battalion in the Green Zone.
    I think there ought to be a certain sense of modesty out of 
Congress to not try and drive antipathy toward this mismanaged 
war by substituting their judgment for those of the military 
commanders on the scene.
    Dr. Snyder. That is the gist of my question because there 
is a temptation, when you are dissatisfied with what is going 
on, to say, We are going to keep your forces there but don't 
get in the civil war, just go after al Qaeda.
    Well, how do you sort that out when you are doing door-to-
door searches trying to make a neighborhood safe? General 
Keane, do you have any comments on that?
    General Keane. I think it is just as reckless for somebody 
here to provide instructions on what the numbers of forces 
should be in Iraq. I think the situation there should be 
driven, you know, by the conditions that are there and that 
reality.
    What has taken place, there are three major missions that 
we do, and two of them have changed dramatically. One is the 
training of the Iraqi Security Forces, and that mission will be 
a constant in my view, you know, for many years to come, even 
after the country is stable and there are no more casualties.
    The second one is the pursuit of the al Qaeda, which at one 
time was the province almost exclusively of the Joint Special 
Operations Forces. What Odierno and what Petraeus have done, 
and one of the reasons largely for the success of the 
operational defeat of the al Qaeda, is the joining of that 
operation with conventional forces. There are actually more 
conventional operations in toto in terms of massive troops 
being conducted against the al Qaeda now than what JSOC is 
doing with the leadership. So those two have melded. And they 
had to be melded if we are going to truly be protective.
    And the third one is protecting the population in Iraq 
which soaks up most of our forces.
    So those are the three major missions. And I think the 
major change will take place as the Iraqis develop capacity, 
and they are developing it all the time, and it is a good news 
story.
    As I said in my opening statement, they are largely in the 
South by themselves. They are largely in the North by 
themselves, and in 08 we will find that in the West and in 
parts of the central region.
    So that is the major transition that will take place. And 
that actually permits the reduction of forces, initially the 25 
percent reduction, and then something beyond that. And as I 
indicated, I think that the logical time is probably 09 to see 
that come to fruition.
    I don't believe we should dictate the mission, and I don't 
believe we should dictate the force size as well. The overall 
strategy in Iraq, certainly for a new administration, is a 
decision and a policy question that they have to deal with in 
terms of what is the outcome they want.
    Dr. Snyder. Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman. A couple of questions. 
The first is, it appeared to me that a series of things in your 
testimony has reflected the same thing, that it wasn't just one 
thing that went right, but a whole series of things have really 
come together and produced some arresting kinds of positive 
results. One of those seemed to me--and it is sort of ironic in 
an amusing way--we who work in D.C. tend to think in terms of 
centralized governments. It seems that the real success was at 
the local level.
    It seems that Iraq, even though the State Department told 
me they have no concept of federalism, yet it seems like the 
concept of local government is uniquely suited to these places 
where there are these tribal differences. And it seems like 
great progress at the local level, provinces and towns and 
cities and local sheiks, and all being willing to shake off the 
al Qaeda and join with our Marines and other places and start 
to build at the local level.
    Now, first of all, I would like you to comment on that. And 
was that a positive piece of what made things go well, or was 
that just sort of an ancillary thing: ``Oh by the way, this 
happened.''
    And then the second question I have is my concern is that 
local government and federalism cannot really endure long if 
the money comes from oil which goes to the Federal Government 
or the Parliament. And then the Parliament controls the money 
entirely, because he who controls the money is going to control 
the government.
    And so my question is: Is it not a very important next step 
to make sure that there are some dollars guaranteed to local 
governments just to make sure that federalism is alive and 
well? This is sort of a two-part.
    General Keane. Who is that question for?
    Mr. Akin. Whoever wants to take a shot. General Keane, if 
you want to do it first.
    Dr. Hamre. Let me offer one brief comment. First of all, I 
think it was crucial that we discovered the power of tribal 
authority as part of this new strategy. The new strategy is 
really bottom up, outside in, and I think it is a very 
important--it is our coming to realize those power structures 
and how to make them work.
    Now, it still creates this dilemma of how do you create a 
coherent central government, because if the central government 
ain't working and the provincial governments are working, then 
you have the problem of how do you hold this place together 
over time. But there is no question that that is the foundation 
of a much more successful strategy. And it wasn't an accident. 
Our people really went to school on this and learned that 
capacity to make that happen. And I think it is a crucial 
dimension to our success.
    Now, the point you raised about how do you share revenue, I 
will just say that one of the dilemmas we have is the 
provincial police are allowed to hire people but the Federal 
Government pays them. And last year, they left over half their 
budget on the table because of a tug of war between Baghdad and 
the provinces. This is a problem. We are going to have to get 
this fixed.
    General Keane. Yes, this is an interesting question and in 
my own discussions with Iraqi and insurgent leaders and other 
Sunni officials and some of the sheik tribal leaders, it has 
kind of been a fascinating process. Out in Anbar Province, 
certainly the repression of the al Qaeda, the cumulative effect 
of that almost four years; forced marriages; the killing and 
raping that was taking place; the behavioral modification that 
was taking place to the degree that it was. They crossed over 
at some point where their future for their children was far 
more important than their very lives. And that was being 
pressed on the tribal leaders themselves by the people. So this 
bottom-up is interesting.
    And then the key sheik leader came to one of the brigade 
commanders and opened his heart to him on the subject and asked 
for assistance. And that is how we began. And that started 
actually in Ramadi itself. And then it spread to that entire 
province much faster than anybody could have imagined.
    But the second thing is very instructive. The Sunni 
insurgent leaders--not all of them because they don't all 
agree, and some of them are still fighting us--they 
strategically met and believed that they could not win. They 
had far too many enemies. They had the al Qaeda. They 
underestimated the Shia militia response to the provocation of 
the Samara mosque bombing and what it did to their people. They 
had the United States military and they had the Iraqi Security 
Forces. They made this decision. President Bush made a military 
decision not described in this fashion, but in fact, the way 
they look at it from their eyes, to occupy the capital of 
Baghdad with U.S. Military forces. They made a decision that 
what they needed to do was to influence the Shia-dominated 
government while the United States had the most influence on 
this power they believed it would have.
    And they haven't had this kind of influence on this 
government for a number of years. And that is also what brought 
them to this movement. So they were pulling back from the 
insurgency, seeking some kind of political accommodation. And 
that brought the people out in numbers, even beyond the Anbar 
Province where those tribal sheiks and leaders are, into the 
other provinces themselves.
    So it has been a fascinating thing to sort of pull the 
threads and understand what actually took place here. And those 
two factors are stunning in terms of the amount of time it 
took.
    And the other point I would make is on the revenue sharing. 
The Shia model of government is strong provincial government 
with money to operate, with a looser central government, if you 
will. They want to achieve that. They have such a weak 
coalition in power right now, they are having great difficulty 
getting to it. But when you talk to them, the intellectual 
backdrop for what they want to do is that. That is where they 
are moving. They realize that the money in the hands of 
provinces and municipalities is going to be much better spent. 
The Sunni model of government is centralized power, centralized 
funding, and centralized distribution.
    I don't think this current coalition which is running the 
country up until the end of 09 can get there in the fashion 
that you are describing, with them being vested with money and 
that kind of power. I think they may be able to get to 
provincial elections, but to get to that kind of execution I 
don't think. I think after the elections and the Sunnis 
participate, then we will get a stronger coalition that may be 
able to do what you suggest and what the Shias believe is the 
right way to integrate the government.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you, 
gentlemen, again for being before us today. I just want to 
begin by saying that there has been a lot of talk and there are 
a lot of our colleagues--there are some of our colleagues who 
would prefer to see a timeline and prefer to see a number of 
troop reductions and everything. And that more or less stems 
from the fact that if you continue to look at where the 
American people are, they really don't want us spending $3 
billion a week in Iraq.
    My dad always used to say, you know, I sit on the board, on 
the board of directors of America U.S.A., and one of the things 
we do is we look at the limited resources and we decide where 
to place them. So I think for a lot of us, especially those of 
us who have been on this committee, we really have been trying 
to sort out where we move and how we move and what we do. We 
are not trying to micromanage the process.
    I would just, you know, caution that we really aren't 
trying to micromanage this process from the Congress, but we 
are trying to figure out where we place limited resources; 
whether we place them on domestic issues or whether we put them 
into Iraq.
    And I would also like to say that even though--and I do 
believe that the surge is working, and I don't think the surge 
is a strategy. I think it is a tactic, personally. That is the 
way that I view it. I would say that even though I think that 
it has been working, meaning to try to create the space which 
is really the strategy for political and economic things to 
happen in Iraq, the fact of the matter is if you look at this 
past year, 2007 it was the year of the entire war where we have 
had the most casualties to our men and women in uniform. So we 
are not out of the woods yet with respect to that.
    And I also would say that I have a real bad feeling that if 
we really begin to draw down troops in a significant amount 
that we could be back to square one again, with an inability to 
really get Iraq back on its feet, especially with the 
Government Accountability Office's (GAO's) report about how the 
Ministry of Interior is corrupt and the police force isn't 
worth anything, et cetera, that we had earlier this year. So I 
am very interested and I have been listening very closely and I 
have read your statements, the ones that we did receive in 
time, with respect to what is going on there.
    I just would like to have on the record that we are not out 
of the woods yet and there are a lot of issues. If we don't 
pull out our troops, then it is not a surge; that is an 
escalation of the war. As long as we keep the amount of troops 
really in, that was an escalation of the war, and I don't think 
the American people really want to hear that. So I think we are 
at a very critical point.
    I think that one of the reasons why we have had such 
success in the North and the South is that those are much more 
homogeneous areas, as you know, and we don't have the problems 
that we have where people who are of different stripes are in 
the same city. I think one of the great factors has been the 
accomplishments we have seen up in the Kurdish area, and to 
that extent the question that I have for you all is with 
respect to the declaration of principles that was recently 
signed by Prime Minister Malaki and President Bush, talking 
about the presence of U.S. troops for the future in Iraq.
    And I understand that the planners at Central Command 
(CENTCOM) and the Joint Staff are preparing staff 
recommendations and courses of action for the eventual drawdown 
of our U.S. forces and the repositioning--or where we are going 
to leave troops or what types of troops we are going to leave.
    And my question to you is: Do you think that those troops 
should be focused or centered or based in an area like the 
North where the Kurds are seeing that that is the most stable 
sort of an area? Or do you think that those--that we should be 
looking at bases or future troops that we keep in there, for 
whatever reason in other areas, in the areas that are going to 
be tougher to deal with?
    I would sort of like to get your opinions on what types of 
troops you think ultimately we might have there if we can 
really do the reconstruction and the political construction 
that we need, and where they might be situated.
    General McCaffrey. Let me, if I may respond to a bit of a 
spillover from the last question, but one of the things that is 
both extremely positive and unsettling, I had a sensing session 
with 38 tank commanders from throughout the Baghdad area, and 
the first impression one gets is these are the finest people we 
ever had in uniform. I have never seen anything like it, 
looking at our company commanders, tank commanders, brigade 
commanders, they have grown up, and they understand 
counterinsurgency. Many of them are on their third or fourth 
tours. They are phenomenally effective.
    And I stumbled around several marketplaces, several towns, 
with some major who would tell me what he was doing was his 
say. And I would assert one of the problems we are going to 
encounter as we come out of Iraq is not just the lack of 
security, but a withdrawal of these unbelievably effective 
troops are going to bring. But when you take the captain and 
company commander out, suddenly that is the guy who has been 
organizing economic activities starting women's councils. The 
personnel, tank commanders going to these ineffective national 
ministries and talking about his clinic with three dentists and 
five docs, and he walked the paperwork around the capitol, and 
that is why it is there. So it is a bit unsettling.
    Now, maybe General Keane and I don't agree on this point, I 
am not sure. I think the next administration is going to take a 
zero base approach to this. I think hopefully, because of 
Petraeus and Ambassador Crocker and Secretary Gates and others, 
we hopefully won't have a disaster when the next administration 
is sworn in. In fact, I am modestly optimistic, to be blunt. 
And so they can look around, decide what they want to do. But 
one legitimate outcome is to say, for sure we are not going to 
keep apart a civil war in Iraq at 1,000 killed and wounded a 
month and $12 billion a month. So there is one outcome that 
politically would be legitimate for the next administration to 
start with.
    And then they would go on to say, well, what are we willing 
to do? So I actually think there is some argument that the next 
administration might well say, we are in a timeline. I opposed 
that in the last three some-odd years. I am now more of a mind 
that the next administration may well say, we want to stand up 
50,000 troops, we want to be outside the urban areas, and to 
give that kind of guidance to a military commander and have him 
come back and say, okay, here is my assessment on what you are 
telling me to do.
    But I don't think we are there for 130,000 troops for 10 
years or 1,000 years. Shouldn't happen, probably won't 
politically.
    Dr. Snyder. Mr. Davis for five minutes.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman. One thing I 
would like to do is to the subject away from interpretations, 
often driven by political positions, before we go and vote on 
the defense authorization again.
    And one question that comes up, I have seen it on the 
ground firsthand in Iraq and Afghanistan, it comes through in 
much of what everybody on the panel has suggested in their 
statements, an area that Chairman Snyder and I and 
Congresswoman Davis have put together a task force to really 
look at from a congressional level, and that is the issue of 
the interagency community and how it functions together.
    I can think all the way back to being a second lieutenant 
in the Army when I saw it, let's say, broken. But there was 
never the pressure on the interagency community with the kinds 
of things that the military is seeing now. One thing I hear 
from my classmates a lot is the military is at war, the Army is 
at war, but the country is not. And so you have a disengagement 
on top of that which creates a lot of misperception out in the 
general public about what is actually happening.
    I throw this out just for the sake of time and would be 
interested in all of your opinions as we are trying to work on 
crafting legislation ranging from increased 1206 authority all 
the way to structural ways that can do, in effect, what the 
Goldwater-Nickels joint legislation did for the military back 
in the 1980's. And that would be this: What do you feel has 
been the greatest interagency success or shortfall, or perhaps 
both, that we have seen in Iraq? I would probably point to the 
Coalition Provisional Authority (CPA) if I were going to say a 
``shortfall.'' But in addition to that, having seen these 
symptoms, you dig down to root causes, from a statutory 
perspective, what could we in the Congress do to help ease that 
effort, so that when we get into the next time we send our 
troops--or our instruments of power may be better put--down 
range, where do we need to focus, from an authorizing 
appropriations personnel standpoint, to have us better prepared 
for the types of things we are going to face this century.
    Dr. Hamre. I must apologize, I have an obligation. I must 
be downtown at five, but I could very briefly say, sir----
    Mr. Davis of Kentucky. You have been very gracious hanging 
with our unpredictable vote schedule here.
    Dr. Hamre. This is the hardest problem I think we have, 
because it goes to the fault line in the Constitution. There is 
no question the Congress has a right to oversee the operation 
of the departments of the Federal Government. But the Congress 
has no right to oversee how the President organizes the 
interaction of those departments. That is in how the President 
structures the execution of the activities of the executive 
branch. And I can't conceive of a structural solution to this 
problem. I think we can come up with small things that we could 
do, which are important.
    Mr. Davis of Kentucky. I would reclaim my time for just one 
second, just to beg to differ. A Member of Congress about 1810 
made the statement that if the Congress doesn't have the right 
to oversee what the Army does, the Army doesn't belong to the 
country, it belongs to the President.
    Dr. Hamre. Congress does have a right to oversee the 
standing departments. That is not a question. It is the 
interagency process that is being run on a day-to-day basis 
that is the prerogative of the President. And we do need to 
find a solution to this problem. And it is at the core the 
constitutional dilemma that we have in our form of government.
    Now, I think there are things we can do. There are things--
we certainly need to deepen the capacity of other executive 
branch agencies to be able to work with the Department of 
Defense. There is no mobilization capacity inside these 
agencies. The State Department is 2,100 Foreign Service 
officers short. They are short. They have no surplus. They 
can't send anybody to training because they haven't got a 
float.
    Mr. Davis of Kentucky. Great Britain has more than we do.
    Dr. Hamre. Sir. So there are very real things we can do. I 
would love to come up and talk to you, but I think it is very 
hard to come with a legislative solution to the interagency 
process because of this constitutional question.
    But there are things that you can do and things I would 
strongly encourage you to do that would help build up these 
other departments, because the Department of Defense has been 
pretty much alone in this thing for far too long. State is 
trying.
    Mr. Davis of Kentucky. I am going to take you up on that 
invitation to meet personally with you, and we will arrange 
that. And I would be interested in your opinions as well, 
especially the General, from a standpoint of I feel like I have 
college classmates that are proconsuls in some cases. They are 
managing all kinds of things very well, but really outside what 
their purview is.
    Dr. Snyder. If you could be brief, please. Then we will go 
to Mr. Sestak for five minutes. And that bell you heard is the 
buzzer, and we will let you go after that because you have been 
very patient this afternoon.
    General Keane. We were recommending a counteroffensive to 
the President and one of the concerns we had was that we needed 
to get the other agencies involved to the degree that the 
military department is, because we have been, for three-plus 
years, compensating for their lack of involvement.
    I really believe we have to take a stab at the structural 
change and organizational change and then the education and 
training of the people who are involved. You know it was put 
together post World War II. I think it has served us well for a 
while, and in the post 9/11 era, the global Information Age, it 
cannot keep up. And that is the reality of it.
    And I think serious people have to come together to look at 
solutions for it in a post Goldwater-Nichols era. That is the 
reality of it. I do believe there are structural changes that 
we can make. I do believe we can make an organizational change. 
There has to be a formal structure that people participate in 
and are held accountable for their performance in that 
structure, and also they have to receive education and training 
to be able to deal with the complexity of the interagency.
    And then when we--I think we should before we do 
conflicts--this group comes together and initially it probably 
is headed up by a military commander in a planning and 
preparation phase, and then in the execution phase it is as 
well. And early on, the military commander stays in charge of 
it, and then maybe at some point as we are dealing with more 
stability operations than military operations, we switch and 
another agency head takes over the joint integration task 
force. So there is a lot we can do and we should do it, and we 
should stop talking about it and start doing something about 
it.
    Dr. Snyder. Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    General, I was taken by your comments that people should 
not, because of success in Iraq or because of frustration with 
the length, be calling for a redeployment. I have always been 
taken by some of those, at least on the side that ask for 
redeployment, that they are not doing it for any other reason 
than they believe it would be a improvement in security.
    I say that because with the following background in the 
short term, that there is not--pre-surge, there was not one 
Army unit, guard, reserve, or active here at home, not one, 
that could deploy anywhere in the world, because the state of 
readiness was so bad.
    Korea has known, in open testimony, Army units that could 
deploy to protect the 27,000 troops there. We were told by the 
Commander in Chief, Pacific Forces (CINCPAC) that Air Force and 
Navy would back them up. You know what the war plans call for.
    Afghanistan has the highest increase in violence we have 
ever seen this year with harvest, record harvest crops, and the 
Taliban are in the ungoverned regions again. Pakistan is 
probably the most dangerous place in the world. In the longer 
term, I see an Army that 42 percent of its recruits are in the 
below mental category, to your point, General. No training in 
any other warfare area except for Iraq-type of. And then China, 
probably where the center of strategic gravity for our Nation 
needs to be.
    To my mind, we are still at the same place we were the last 
time you all testified. Same place. How long and at what 
acceptable cost?
    General, you said, McCaffrey, that the Sunnis basically are 
doing something because, oh my gosh, they are going to leave, I 
better get more involved. Oh my gosh, they are going to leave, 
I better get more involved.
    You also said, though, that our responsibility in Congress 
is to raise armies and those things. But it also says in the 
Constitution provide for the common defense, which 
constitutionally gives Congress a role to play in this debate. 
I know you have answered this in a way, but how long? And at 
what acceptable cost for overall U.S. security? In particular, 
when the Chairman of the Joint Chiefs of Staff says, in Iraq we 
do what we must. In Afghanistan--and I believe he could have 
added in there, for the rest of the world--we do what we can.
    General, or each of you, how long and at what acceptable 
cost to stay there?
    General McCaffrey. First of all, I think your premise is an 
appropriate one that, you know, when the question was to what 
extent has the interagency process failed, I might add to what 
extent has the congressional role of oversight failed, to what 
extent has the Senate responsibility to confirm senior officers 
of government? And without overstating, this part of the 
problem wasn't structural it was leadership. We had a level of 
arrogance and misjudgments on the part of Mr. Rumsfeld and some 
of his senior team that were of historical importance. And they 
were not confronted. At one of these hearings six months ago 
where the--and the Senate asked me, why didn't the generals 
tell us the truth? And the answer was, you did get the truth, 
and you were intimidated by a leadership that got us in a real 
perilous position.
    If Dr. Perry had been the Secretary of Defense, if Dr. 
Gates had been the Secretary of Defense, you will see quite 
different tones. That wasn't a structure problem. It was 
wisdom. It was judgment.
    And I think the second piece of it is Congress should play 
a legitimate role, not by specifying missions or tinkering with 
the internal tactics in Iraq, but you do have a role to play.
    Mr. Sestak. But, General, if I could--and I am almost out 
of time--your wisdom, your judgment, each of you, how long, 
with knowing what is happening in our overall security, because 
this isn't just about Iraq security, it is about our overall 
security, how long and at what cost?
    General Keane. Well, this gentleman asked a legitimate 
question and, you know, some of the points that you made are 
certainly valid. We do have other concerns in the world, and 
those are real concerns, and we do have some impact on our 
forces and those are very real. But the only thing I would say 
in response to that is that we know the consequences of failure 
in Iraq are generally unacceptable, I think to most thoughtful 
people; and if that is truly the case, if you accept that 
premise of what failure in Iraq would mean in terms of 
endangering the American people and what it would mean to us in 
the region, the seriousness of that, then I don't for the life 
of me understand why would we risk losing a war in Iraq so that 
it would help us with maybe fighting a future war someplace? 
That, I think, invites adventurism on the part of our enemies, 
and it also affects the relationship that we have with our 
allies. And certainly it changed the dynamic in the region.
    I don't think anybody has an answer to your question as to 
how long. I know I don't. But this much I do know. We are 
bringing the combat forces down by 25 percent in 08. I think 
the prudent thing to do is to reduce those forces even further 
in 09. I would not do any more reductions in 08 until we knew 
what the assessment of that reduction is. And I think as a side 
bar to that, the casualties are still going to come down. And 
as those casualties come down, I think it changes the dynamics 
in Iraq rather dramatically, and it will free up forces as 
well.
    Dr. Snyder. I apologize. We have two minutes left, or maybe 
less, on this vote.
    Mr. Sestak, I appreciate your question. I think it is as 
about as bad a truncated experience we have this afternoon as I 
have seen in a while, but it is bad luck on the votes.
    I appreciate your all attendance here today. We are not 
going to keep you after this vote. You have been here almost 
three hours anyway, but we really appreciate your statements 
and your thoughts and the wisdom that you provided.
    Committee is adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            January 16, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 16, 2008

=======================================================================
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 16, 2008

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
     
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 16, 2008

=======================================================================
      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Lt. General Lute's role is shaping Iraq policy has been 
unclear. Can you explain what you think his role is and what he has 
accomplished? CENTCOM's position has been similarly ambiguous, as the 
chain of command seems to be from General Petraeus directly to the 
Secretary of Defense. Can you explain what role CENTCOM is playing, if 
any?
    Dr. Hamre. I know that LTG Lute's appointment caused great debate, 
and there were statements that he was to be the ``czar'' for Iraq 
policy in the Bush Administration. I actually think his role was more 
modest and more appropriate. I believe LTG Lute has been playing an 
essential coordination role, to ensure that the U.S. Government's 
response is more coordinated and coherent. The leadership for action 
has remained with the respective Departments of the Executive Branch. 
My impression is that he is working hard to make sure interagency 
problems are brought forward to the National Security Council, and that 
there is some measure of follow through on the decisions that are made.
    I don't believe that CENTCOM's role is ambiguous. CENTCOM remains 
responsible for the security issues in their area of operation. 
Secretary Rumsfeld created a reporting relationship where the Commander 
in Iraq reports directly. I know that General Petraeus (as did his 
predecessor) also reports to the CENTCOM commander. This relationship 
is analogous to the situation we have in the Pacific with the 
Commander, US Forces Korea. CENTCOM is responsible for the broader 
security challenges in the region, with special attention to Iran. I 
also know that Secretary Gates has tasked CENTCOM to provide an 
independent assessment of the security situation inside Iraq. He 
indicated recently that he has asked for independent assessments from 
General Petraeus, from CENTCOM and from the Joint Staff so that he has 
differing perspectives on the situation in Iraq for purposes of is own 
decision making.
    Dr. Snyder. Have you had the opportunity to evaluate the current 
Joint Campaign Plan? If so, what are your unclassified impressions of 
it?
    Dr. Hamre. I am afraid I am not familiar with the current Joint 
Campaign Plan and have not studied it. I have several experts at CSIS 
who are familiar with it. If the Committee would wish to draw on those 
experts, please let me know.
    Dr. Snyder. Please feel free to submit any other information on the 
way forward in Iraq, or to extend your remarks.
    Dr. Hamre. I feel the Committee gave me ample opportunity to 
explain my views, both during the period of my opening statement and in 
my response to questions from the Committee members. Therefore, I do 
not have any additional comments to offer at this time.
    Dr. Snyder. Have you had the opportunity to evaluate the current 
Joint Campaign Plan? If so, what are your unclassified impressions of 
it?
    Mr. Kojm. I have not had the opportunity to review the Joint 
Campaign Plan.
    Dr. Snyder. Please feel free to submit any other information on the 
way forward in Iraq, or to extend your remarks.
    Mr. Kojm. Tactical progress under the surge, and a dampening of the 
violence, is an opportunity for U.S. policy. Yet if there is no 
significant progress on political reconciliation in Iraq, this moment 
of hope will pass, and sectarian violence will resume.
    As General Petraeus put it in the Washington Post (March 14, 2008), 
``no one'' in the U.S. and Iraqi government ``feels that there has been 
sufficient progress by any means in the area of national 
reconciliation,'' or in the provision of basic public services. In the 
absence of such progress, the achievements of the surge will erode and 
unwind.
    There is still a significant imbalance in the use of American power 
and influence in Iraq. Too much emphasis is focused on the military 
side of the equation.
    The focus for U.S. policy in 2008 should be an all-out effort to 
press the parties in Iraq on political reconciliation. In addition, US 
diplomatic efforts should be focused on engaging regional partners and 
the international community in support of reconciliation, security and 
stability in Iraq. Our diplomatic efforts to date have been lackluster. 
They have been selective. They cannot be successful unless we engage 
all of Iraq's neighbors directly in that diplomatic effort.
    Finally, the United States has a strategic interest as well as 
responsibility in addressing the plight of the more than 4 million 
Iraqis who have been forced from their homes. Stability in Iraq will be 
difficult to achieve and sustain unless the humanitarian needs of these 
refugees are addressed, and unless there is a growing climate of 
political reconciliation that makes it possible for refugees to return 
to their homes.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. DAVIS
    Mr. Davis.  What do you feel has been the greatest interagency 
success or shortfall, or perhaps both, that we have seen in Iraq? From 
a statutory perspective, what could we in the Congress do to help ease 
that effort, so that when we get into the next time we send our 
troops--or our instruments of power may be better put--down range, 
where do we need to focus, from an authorizing and appropriating 
personnel standpoint, to have us better prepared for the types of 
things we are going to face this century?
    Dr. Hamre. This is an enormously complex problem and question. It 
has many dimensions.
    There have been substantial ``interagency problems'' associated 
with our activities in Iraq. The Department of Defense made a mistake 
to think that it could manage all the problems by itself in Iraq. In 
the early stages of the operation, it excluded other agencies from 
participating in the planning and early organization. When DOD realized 
this was a mistake and it needed the other agencies, a climate of ill 
will prevailed that limited the extent to which other federal agencies 
wished to jump into the situation.
    One of the greatest failings in the interagency process was the 
failure to follow through when tasks were assigned to the various 
agencies and bureaus. The Administration held countless meetings on 
Iraq and made many decisions, but there was a systematic weakness in 
that they failed to follow up to determine whether the agencies had 
followed through on their assignments. In my personal judgment, this 
lack of follow up and accountability was the greatest interagency 
failure in Iraq.
    The non-DOD agencies of the federal government lack an operational 
culture (using the term ``operational'' in the terms used by DOD, 
meaning undertaking tasks in the field) and lack sufficient depth of 
staffing resources to focus specifically on pressing assignments. This 
led the Government to turn to contractors for conducting operations 
that should have involved U.S. governrnent personnel.
    You asked what Congress can do from a statutory perspective to deal 
with these problems.
    First, let me say that I think this question hits the great fault 
line in the U.S. Constitution. The Constitution unequivocally assigns 
the Congress the right to oversee the functioning of the individual 
departments of the Executive Branch. But the Constitution also protects 
the right of the President to exercise his executive authority. 
Historically, how the president coordinates the various activities of 
the executive branch through the interagency process has been judged to 
be an executive branch authority. I personally hold this view. So I do 
not think that the Congress has a right to statutorily regulate the 
interagency process.
    Having said this, however, I do think there are important things 
that can be done by the Congress. First, the Congress can and should 
use its oversight functions to bring together various Department heads 
at the same time in joint hearings to ascertain how the agencies are 
working together. The Congress has not done a good job of overseeing 
the activities of the Executive Branch concerning Iraq, in my personal 
judgment. Second, the Congress can insist that executive branch 
agencies (especially non-DOD agencies) have adequate staff to 
participate in emergency operations that were not anticipated in 
baseline budgets. DOD routinely programs to buy more personnel than are 
needed for peacetime operations (a so-called ``float'') so that it can 
send people to training, dispatch them to professional development 
assignments in other agencies, and staff emergency operations. Non-DOD 
federal agencies do not have this so-called manpower ``float''. They 
very much need it if we are to fix this problem.
    The Congress could consider mandating that senior civilians may not 
be promoted above a certain rank unless they have had interagency 
experience, paralleling the reform instituted in the Goldwater-Nichols 
Act.
    I also believe that we need a standing administrative capability in 
the Executive Branch to assist the stand-up of interagency crisis 
action teams when problems emerge. The State Department created the 
Stabilization and Reconstruction Office in part to deal with this 
problem, but I don't think this has been accepted as a viable solution 
outside of the State Department. Personally, I believe an 
administrative structure should be attached as a field operating agency 
to the White House Executive Secretary organization. This 
administrative structure would serve as the mechanical backbone for 
coordination in the early hours of a crisis and become the backbone for 
an interagency crisis action team. I believe this is something the 
Congress can mandate.
    The U.S. experience in Iraq is marked by interagency shortfalls and 
failures of the decision-making process that have resulted in several 
mistakes deeply harmful to US goals and interests in Iraq.

    For the sake of brevity, only a few are noted here:

    `   the dissolution of the Iraqi military in 2003 contrary to the 
advice of U.S. forces on the ground, and without interagency 
consultation;

    `   a de-baathification order that similarly was contrary to expert 
advice and promulgated without interagency review;

    `   a failure to recognize the presence and growth of an insurgency 
against the U.S. presence;

    `   a failure to carry out economic reconstruction projects in a 
manner that involved Iraqis in their design and execution; and

    `   a failure to deploy a meaningful and expert U.S. civilian 
affairs presence in conjunction with the U.S. military presence in 
Iraq.

    Several of these problems are not susceptible to legislative 
correction. The President is responsible for the activities of the 
National Security Council and the proper function of the interagency 
policy coordination process. The President's National Security Adviser 
is responsible for ensuring that national security agencies have 
meaningful input before key decisions are made. Presidents will resist, 
on both practical and constitutional grounds, legislative dictates as 
to how they should manage the policymaking process.
    The Congress has a critically important role to play in helping to 
create or restore the capabilities of national security agencies of the 
United States government.
    The Congress should insist that the President present budgets that 
build the international capabilities of civilian agencies of the United 
States government, including the Department of State, the Agency for 
International Development, and the international affairs activities of 
a wide range of Cabinet Departments.
    The Congress should call on the President to create a civilian 
expeditionary force or capability that can deploy in conjunction with 
the U.S. military in support of post-conflict reconstruction 
activities.
    Whatever the President may request in his budget, the Congress and 
its Committees Have a responsibility to authorize and appropriate funds 
that restore balance with respect to the tools of national power. In 
the first instance, this requires significant budget increases for the 
personnel and activities of the civilian agencies of the national 
security establishment.
    A CONTINUING DIALOGUE: POST-SURGE ALTERNATIVES FOR IRAQ (PART 2)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Wednesday, January 23, 2008.
    The subcommittee met, pursuant to call, at 1:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. We appreciate 
you all being here with us this afternoon. Mr. Akin will be 
joining us shortly.
    I see our chairman of the full committee, Mr. Skelton, is 
coming in to join us, and we are pleased to see him here this 
afternoon.
    This is the sixth hearing that this subcommittee has held 
in the last seven or eight months on Iraq. We held four back in 
July and one last week and one today. And I think the title of 
this series, a continuing dialogue, post-surge alternatives for 
Iraq, is a good one, because this is a continuing, ongoing 
dialogue that this country is having.
    I will have to say, sometimes the dialogue is perhaps more 
flash than substance, but we hope that the pattern continues at 
this subcommittee today that it is one of substance.
    I want to say from the get go I was very pleased with all 
of your written statements. They obviously were very thoughtful 
contributions to this continuing dialogue that this country 
needs to have.
    That is about all I am going to say. I am going to 
introduce you.
    We will be joined by Mr. Akin. Mr. Skelton may want to 
participate in this hearing also.
    Our witnesses today are Dr. Stephen Biddle, the Senior 
Fellow for Defense Policy at the Council on Foreign Relations; 
Dr. Andy Krepinevich from the Center for Strategic and 
Budgetary Assessments; Professor Lawrence Wilkerson, Former 
Chief of Staff of Secretary of State Colin Powell and is now 
the visiting Pamela Harriman Professor of Government at the 
College of William and Mary; and Mr. Michael Eisenstadt, 
Director of the Military and Securities Studies Program at the 
Washington Institute for Near East Policy.
    And I must also acknowledge that Mr. Michael Eisenstadt is 
also Lieutenant Colonel Eisenstadt, who is due to deploy in 
Iraq fairly soon.
    How soon? Sorry?
    Mr. Eisenstadt. A short tour.
    Dr. Snyder. A short tour.
    Gentlemen, we appreciate you being with us today. I will 
have Sasha put on the five-minute clock for your opening 
statements, but you feel free to ignore it if you have got 
other things to say. It is just to give you a sense of where 
time is. Your written statements will be made a part of the 
record.
    We are joined by Mr. Akin. If he would like to do his 
opening statement now, he may do so.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 97.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. I think I have a short opening statement. Doctor, 
I am just thankful for the witnesses, look forward to your 
testimony, and we have an energetic doctor running this 
committee. This is his second committee hearing in one day, so 
I think he ought to get a special star award.
    Thank you, Vic.
    Dr. Snyder. Thank you. Mr. Akin is referring to this 
morning. We had a private briefing at 8 o'clock with Kathy 
Hicks and Rick Barton, and what was the third person's name? 
Steve McMorris, on the whole issue of interagency issues in 
post-conflict situations.
    So, Dr. Biddle, why don't you begin? We will go right down 
the row.

   STATEMENT OF DR. STEPHEN BIDDLE, SENOR FELLOW FOR DEFENSE 
 POLICY, COUNCIL ON FOREIGN RELATIONS; DR. ANDREW KREPINEVICH, 
JR., PRESIDENT, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS; 
 COL. LAWRENCE B. WILKERSON, U.S. ARMY (RET.), FORMER CHIEF OF 
   STAFF TO FORMER SECRETARY OF STATE COLIN POWELL, VISITING 
PAMELA C. HARRIMAN PROFESSOR OF GOVERNMENT, COLLEGE OF WILLIAM 
 AND MARY; MICHAEL EISENSTADT, DIRECTOR, MILITARY AND SECURITY 
 STUDIES PROGRAM, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

                STATEMENT OF DR. STEPHEN BIDDLE

    Dr. Biddle. Well, thanks for the opportunity to discuss 
these issues with the committee. The surge saw a major 
reduction in violence, but the surge is ending, so what does 
this mean for Iraq? I think that is about as important a 
question as the Nation faces right now.
    Obviously, nothing is guaranteed in Iraq. We are a long way 
from anything that looks like peace or stability. There are a 
lot of things that could cause these trends to reverse.
    But, having said all of those things, I think that the 
underlying strategic calculus in Iraq has changed since 2006 in 
ways that create an opportunity, by no means a guarantee, but 
an opportunity for something that looks like tolerable 
stability in Iraq, but not if the United States takes a peace 
dividend and pulls our troops out too fast or too deep.
    I think our role in Iraq, if breaks continue to go our way, 
could shift from war fighting to peacekeeping, and if that 
happens, it wouldn't involve the casualty rates of war fighting 
as we have seen it in Iraq since 2003. But peacekeeping is a 
long-term, long-duration, labor-intensive job. And I think if 
we draw our troops down too far, too fast, we run the risk of 
being unable to do it effectively and undermining what we have 
been able to obtain over the course of 2007.
    Now, my written statement goes into some detail on the 
nature of the strategic environment in Iraq and how it is 
changing. I am just going to highlight three key events in the 
last couple of years that I think have been particularly 
important in this context, most of which, incidentally, we had 
nothing to do with. And in fact in at least one key element of 
which we actually sought to prevent, but which nevertheless has 
conspired, if you like, to bring about an environment that 
could be more favorable.
    The first and most important of these is Sunni military 
defeat in the battle of Baghdad that followed the Askaria 
mosque bombing of February 2006. The wave of sectarian violence 
that followed that event was a humanitarian disaster and the 
United States, for understandable reasons, would have preferred 
that it not occur.
    But the net result of that violence was to push Sunnis 
systematically out of the majority of what had been a mixed 
Baghdad and take a Sunni insurgent collection that had believed 
prior to this point that if they could just get the Americans 
out of the war they would win the full-scale version of the 
civil war that would follow against what they viewed as a weak 
Shiite government and persuaded them that this was an incorrect 
appreciation of the military reality in Iraq.
    They got the Sunni-Shiite war in Baghdad with us standing 
on the sidelines that they wanted, and the result hurt them. It 
didn't help them. That meant that systematically their view of 
the military possibilities changed.
    The second key change in the environment was a series of 
mistakes by al Qaeda in Iraq (AQI). It is nice to know that we 
don't have a monopoly on screwing things up in Iraq.
    Al Qaeda in Iraq managed to be so violent to their Sunni 
co-religionists, and interfered so substantially with the 
smuggling routes that had been the traditional tribal patronage 
network fuelers of Sunni tribal sheiks in Anbar Province, that 
they convinced their Sunni allies that they, AQI, were 
extremely costly allies to have around.
    Prior to the battle of Baghdad, Sunnis believed that this 
was a cost they just had to bear, because they thought al Qaeda 
in Iraq was carrying their military water for them and was 
necessary for security against the Shiites and the Americans. 
The battle of Baghdad persuaded them that AQI couldn't deliver 
military results on the battlefield.
    This made them all cost and no benefit and caused Sunnis 
systematically to look for other allies and the only 
possibility for that was us. And this is where the third key 
development, the surge, came in the picture.
    Tribal sheiks in Anbar had tried to break away from AQI in 
the past and al Qaeda counterattacks had made it impossible for 
them to sustain that posture and they would come back to the 
fold. What the surge did was to provide protection for Sunnis 
who wanted to flip, to enable them to survive the counterattack 
they would inevitably receive from their erstwhile allies in 
the form of al Qaeda in Iraq.
    This systematically changed cost-benefit and opportunity 
for Sunnis and the result was that the majority of the Sunni 
combatants in the theater have now stood down and are observing 
local negotiated cease-fires with the United States and the 
government of Iraq.
    That then changed Shiite militia incentives in ways that 
put it in the interest of militia leaders like Muqtada al-Sadr 
to observe cease-fires of their own for reasons that are 
detailed in the testimony, and I would be happy to follow up on 
in Q and A if you like. But for the moment I will simply assert 
that the result of this change in strategic possibilities 
facing the Sunnis, creating a stand-down which created 
incentives for a comparable series of cease-fires from Shiite 
militias, has been that at the moment violence has come down 
because most of the people who had been doing the violence have 
made a voluntary decision to stop.
    They retain their arms, they retain their organizations. In 
many cases, they maintain their leaders and their ambitions, 
but it is for now in their strategic interest to cease firing, 
rather than continuing the warfare. All of those decisions have 
a base in strategic reality but could change.
    Voluntary decisions to stop fighting can be followed by 
voluntary decisions to resume fighting. These deals are 
terribly important, but they are not inherently stable or self 
enforcing or terribly unusual when we look at the negotiated 
endings of ethnic and sectarian civil wars like Iraq's.
    You always face an initial period in which parties have 
made a voluntary decision to stand down but retain enough 
military capacity to go back to war if they decide to. Critical 
in stabilizing these deals classically is the role of an 
outside party that can serve as a peacekeeper to enforce the 
terms that the parties have agreed to and prevent the situation 
from spiraling out of control as spoiler violence returns the 
situation to something that looks more like 2006.
    For that reason, I think it is terribly important that if 
we are going to take advantage of the opportunity that the 
moment provides--no guarantee, even if we do the right thing--
but a chance and an opportunity, we have to play this 
peacekeeping, stabilizing role in the event that breaks 
continue to work our way.
    If we decline to do it, I think it is very likely that Iraq 
will return to what we saw in 2006 and before.
    [The prepared statement of Dr. Biddle can be found in the 
Appendix on page 102.]
    Dr. Snyder. Dr. Krepinevich.

            STATEMENT OF DR. ANDREW KREPINEVICH, JR.

    Dr. Krepinevich. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here today and share my views on this issue. 
My testimony speaks to first a critique of the strategic 
alternatives you mentioned as being suboptimal. I won't go into 
that. I will focus my remarks primarily on alternatives, as 
opposed to critiquing the current public debate.
    Echoing what my colleague says, I think it is almost 
certain to be a difficult path for us in Iraq, whether we stay 
or whether we withdraw. And it seems to me this is one of the 
fundamental issues that the American political leadership has 
not really presented to the American people.
    It reminds me to some extent what President Johnson once 
said about Vietnam. He said I feel like a hitchhiker out on a 
west Texas highway, where you see a car about once every hour 
or so. And I see a storm coming on the horizon, and I can't 
run, and there is no place to hide. I have just got to stand 
there and take it.
    And, again, I think if you look at the option for a timed, 
stated withdrawal and you look at the options that are involved 
in staying, there is no pleasant option. There is no easy path. 
And I think we need to come to an acceptance of that at the 
very beginning.
    I think we also therefore need to accept the fact that if 
we are to achieve even our minimal objectives, a reasonably 
stable Iraq that is not a haven for terrorism, not likely to 
pursue weapons of mass destruction, not likely to lead to a 
wider war, that we are going to have to be in Iraq for an 
extended period of time.
    We need to convince the Iraqis of this necessity, as well 
as ourselves. And I think there are some Iraqis who are 
beginning to come around in terms of--I think one of the more 
interesting statements I have heard is, well, we can't tolerate 
you as occupiers, but we might be able to accept you as guests. 
We have got to get them moving toward that second mindset.
    As Dr. Biddle points out, the surge, part through 
serendipity, part through design, has enjoyed a number of 
successes, enhanced security, the tribal awakenings it is 
termed by some, the weakening of AQI, some bottom-up 
reconciliation, stability at the local level, some top-down 
progress as well. But it hasn't produced yet the major movement 
toward the grand bargain or the national compact, as Ambassador 
Khalilzad once referred to it.
    The political solution that we all agree really is 
necessary before stability can come to that country. However, I 
do think that our best chance at achieving our minimal 
objectives lies in building upon the success that has come out 
of the surge, rather than pulling the plug on what we are doing 
in Iraq and hoping for the best.
    I think, though, that continuing the surge, first of all is 
not really an option. Surge means it is a temporary increase in 
effort and of course that increase in effort is coming to an 
end. Nor do I think that we can count on the serendipitous 
events--there are others in addition to what Dr. Biddle 
mentioned--as a strategy for how we are going to proceed into 
the future.
    What are some elements of the way ahead? Well, first, I 
think we need to maintain the fundamental shift in approach 
that characterized a good part of the surge campaign, which is 
to say an effort to provide greater levels of enduring security 
to the Iraqi people.
    To a great extent, an insurgency conflict, this kind of 
conflict, is a war of intelligence. If we know who the enemy is 
and where the enemy is, we can defeat him. It is not a matter 
of not having enough tanks or planes or guns, it is a matter of 
not having enough good intelligence.
    And to the extent that you provide people security and an 
option to cooperate, you enable enduring reconstruction, you 
begin to work out deals at the local level with these tribes 
and so on, that is one effective means of getting access to 
that intelligence.
    Second, as our troop levels come down, we have to help the 
Iraqis help themselves. This means that, I think, we are going 
to have to move more in the direction of standing up a cadre, a 
cadre of advisers that can work with the Iraqis as U.S. forces 
draw down, both to enable them to operate effectively, but 
quite frankly also as a great source of intelligence for us to 
identify which Iraqi commanders are competent and incompetent, 
which are loyal and disloyal, which are sectarian and which are 
prone to avoid those temptations.
    Third, I think we need to continue to pursue reconciliation 
from the bottom up, as well as the top down. This hopefully 
will incentivize faction leaders at the national level to work 
toward compromise and also to enable us to form local alliances 
if things do take a turn for the worse.
    Fourth, we need to keep our best commanders and diplomats 
in the fight. I was struck by the statement on the part of one 
senior Army officer who said to me at one point, you don't 
understand. The United States Army would rather lose this war 
than change its personnel policies.
    We have got to stop the practice of rotating commanders in 
and out as though they are interchangeable parts, when the 
history of warfare teaches us that it makes a huge difference 
whether you have a George Washington or Benedict Arnold in 
charge of your army, or a General Grant versus a General 
McClellan.
    Right now, again, we have General Odierno, who by the 
account of many has done a remarkably effective job in his role 
in commanding forces in the surge, rotating out. Why? Is he 
burned out? Is he battle weary? No, it is just not his turn 
anymore.
    Finally, we need to establish unity of command in Iraq, as 
well as in Washington. There still is no single American in 
charge in that country. Both Ambassador Crocker and General 
Petraeus have to negotiate with each other in order to get 
something done.
    Fortunately, they are two people in the right place at the 
right time, but, again, this is a serendipitous event to some 
extent. Sooner or later--there are already rumors about 
Petraeus leaving to go to Europe. We will be faced with can we 
get two other people to get along well?
    And, finally, we need to see any strategy within the larger 
context of a war that is really ongoing between the 
Mediterranean and the Hindu Kush, and certainly this is the way 
a number of our enemies look at this, whether it is al Qaeda or 
Iran or others. This is not a war in which the consequences of 
the outcome will be localized solely to Iraq.
    In summary, these initiatives, like others, offer no 
guarantees of success. I think they offer a better chance than 
just simply staying the course and continuing with current 
processes or setting arbitrary dates for withdrawal and 
following through on them.
    There are no easy solutions. Although former Secretary of 
Defense Rumsfeld has been roundly criticized by some, I think 
he got it exactly right when in October 2003 he said we are in 
for ``a long, hard slog.'' Again, I think that is true whether 
we stay or whether we leave.
    President Kennedy once talked about the challenges that 
each generation faces. And, to be sure, we will debate for many 
years whether or not we should have gone into Iraq, whether it 
was the right thing to do or the wrong thing to do.
    FDR once asked Winston Churchill in the middle of World War 
II, what should we call this war? And Churchill responded, 
immediately, why, the unnecessary war, of course, realizing 
that appeasement had led to that conflict.
    Having said that, we are in the middle of this conflict, 
and the question is how do we resolve it? How do we end it? It 
is certainly going to be a difficult challenge. The question 
is, are we up to that challenge? Is it a reasonable challenge? 
Is there a strategy that will lead us somehow to achieve our 
minimal objectives?
    President Kennedy once challenged this nation by saying we 
choose to do these things, going to the moon, waging the Cold 
War and so on, not because they are easy, but because they are 
hard, because the challenges are ones that we are willing to 
accept, that we are unwilling to postpone, and ones that we 
intend to win.
    And I think we really need to get to the point of 
seriousness, of understanding that staying or going, it is 
going to be difficult and we have to get about the business of 
improving our strategic options.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 113.]
    Dr. Snyder. Thank you, Dr. Krepinevich. One of my 
accomplishments in my 12 years here is learning to say 
Krepinevich, so I try to demonstrate that skill in each answer 
I give.
    Dr. Krepinevich. It took me longer than 12 years.
    Dr. Snyder. Mr. Wilkerson.

            STATEMENT OF COL. LAWRENCE B. WILKERSON

    Colonel Wilkerson. Thank you, and thank you for having me 
here today. I wish I had been in your morning meeting. One of 
my major interests right now, having seen it absolutely 
dysfunctional for a long time now, particularly my four years 
at the State Department, interagency coordination is a large 
part of what got us to where we are now.
    Dr. Snyder. Well, that will be my first question during the 
Q and A, so you can keep your powder dry until then.
    Colonel Wilkerson. And let me also identify myself rather 
strongly with Dr. Biddle's remarks in particular and, as well, 
on my right--I won't try the name.
    But let me try to put just a few more markers on the table, 
I think. Muqtada al-Sadr going to ground and taking the most 
powerful militia in Iraq with him certainly is part of the 
reason why we have a better situation in Iraq today. And that 
is why his recent statements, however accurately reported, 
about perhaps rejoining the fight are particularly disquieting.
    Again, the decision of many Sunni leaders to suddenly 
decide to change their ways is a part of that. And I would add 
that the vigorous U.S. and coalition combat operations that 
occurred starting in early 2007 and right up to the point of 
the actual so-called surge did a lot to convince the Sunni 
leaders that maybe they should change their ways. Maybe taking 
money and arms and training was better than getting killed.
    And I would add to that the significant operations against 
al Qaeda also. And I think we can't fail to understand or 
misunderstand--we shouldn't misunderstand the war we are in 
amongst what is left in Iraq. That is coupled to the fact that 
we have had anywhere from two to three million in a diaspora, 
most of whom are in Jordan or Syria, and another million or so 
probably in Iraq who didn't have the wherewithal and the means 
to get out.
    And we need not forget also that at the time of the surge, 
the ethnic cleansing was pretty much done. So there is this 
kind of weird equilibrium in Iraq right now, produced, as Dr. 
Biddle said, by sort of a confluence of things that is as much 
serendipitous as it is anything else.
    I do agree, though, that we have the first competent 
leadership team in Iraq since the war started. That is a 
profound statement to make, but I think it is nonetheless true.
    In the face of this favorable development, I don't disagree 
with anything my colleagues have said either with regard to the 
difficulty or with regard to the possibilities or the 
opportunities. But I would like to point out, I think, two 
other very important realities. One is that we are 
significantly malpositioned to protect with a very small 
professional military the rest of our strategic interests, not 
only in the Gulf and the Middle East, but in the world.
    I would not want to be Admiral Fallon, trying to figure out 
how he is going to do all the things that he needs to do with 
154,000, I am told is the figure right now, American troops 
with their boots on Arab soil, sort of enmeshed in what they 
are in. And then add to that in Afghanistan and so forth.
    I would want to get those forces, as rapidly as possible, 
back out into carrier battle groups and Marine amphibious ready 
groups, pre-positioned stocks, exercises with Gulf Cooperation 
Council (GCC) countries and so forth, a profile not unlike the 
profile we had before we enmeshed ourselves so much in this 
particular portion of the Middle East.
    I would want to be agile. I would want to be flexible with 
my military forces, particularly since they are so small, to 
protect the rest of America's interests. So I think that is a 
reality that imposes--maybe we don't publicize it, but it 
imposes a timetable on what we are talking about in terms of 
exploiting this new opportunity or these new opportunities.
    I also think there is another area. I think we are 
destroying our land forces. And this is a very arcane, esoteric 
subject that people, just their eyes go dull on, but we have 
got to look at the institutional fabric of the Army, for 
example, its educational processes, the courses that officers 
have to go through to be professional and so forth.
    We have to look at the captains in the Army, which I am 
told now we are about 15,000 short on. We have to look at 
recruiting. My son just came home from Kirkuk. It was his 
second tour.
    My son walked through Baltimore-Washington International 
Airport (BWI), went through customs, came up to me, and the 
first words out his mouth were not, it is good to see you, dad. 
They were, I am out. And he submitted his paperwork. He is on 
the major's list. He is going to get promoted to major on 1 
May, and he is going to get out on 2 May.
    That is anecdotal, but I think we have a significant 
problem on the spousal side, whichever that might be, male or 
female, as much as we do maybe even amongst the ranks. That 
said, I will have to tell you that I heard Seth Moulton on a 
radio show yesterday where Michael O'Hanlon and I were talking 
for about an hour, ``On Point'' on National Public Radio (NPR), 
and Seth Moulton came out of the desert and just surprised me, 
because he is one of my heroes, Harvard-trained Marine, mind 
you. And I spent 12 years with the Marines. I know there aren't 
too many of those animals.
    And Seth is on his fourth tour in Iraq and what he said on 
that show really gripped me, and I think it gripped Michael and 
it gripped the listeners, too. He said, we have made remarkable 
progress in this country. And this is the man who at the end of 
Charles Ferguson's documentary, ``No End in Sight,'' says, 
don't tell me that America can't do better. Don't tell the guys 
that died with me in Najaf that America can't do better.
    On his fourth tour in Iraq, he says we have made remarkable 
progress. But then he said something quite disheartening. He 
said there has been absolutely no, in my view, political 
progress, and if we don't make political progress--and then he 
left it hanging.
    I think that is the sine qua non here. If you don't make 
political progress, then what are you doing there in the first 
place? And so these two realities, the need to get back the 
strategic agility and flexibility again, the need to get our 
boots off Arab soil, the need to protect our land forces--
because I don't see you approving a vast increase in the land 
forces. And I don't see that taking effect quickly enough to 
have a real impact anyway.
    I think we have to think about these two things as we 
consider all of the things that have been said here. And as we 
try to exploit these opportunities, we have to have sort of a 
date certain, at least in our minds, about where we are going 
to say it is over.
    And then I would say we might be surprised about what 
happens when we say it is over. I think there are two 
possibilities. It will muddle through, and we will be over the 
horizon to make sure that the muddling is more in our interest 
than against it, or it will turn into a vicious civil war as 
the Sunnis, newly trained and newly armed and backed by the 
Saudis suddenly get very, very aggressive again.
    And, in that case, I would say we wait and see who wins and 
then try to work out an arrangement with the victor. Thank you.
    [The prepared statement of Colonel Wilkerson can be found 
in the Appendix on page 124.]
    Dr. Snyder. Mr. Eisenstadt.

                STATEMENT OF MICHAEL EISENSTADT

    Mr. Eisenstadt. Yes, sir. Three very powerful and 
compelling sets of testimony. I would just like to add a few of 
my own thoughts to the comments, the preceding comments.
    First, just a few comments about the factors which account 
for I think the dramatic improvement in the last six months in 
the security situation in Iraq, and the first having to do with 
the tribal awakening. And what we are seeing I think in Anbar 
Province and spreading elsewhere as well is something which is 
very typical in tribal societies in the Middle East. And that 
is when tribal groups are threatened by external actors, tribal 
groups that often have problems working together will bond 
together to deal with the external threat.
    And once the threat is removed, they will once again 
relapse to--I wouldn't go so far as to say their natural state 
of affairs of kind of somewhat contentious relations. But I 
think that is something that we have to be careful about and 
keep an eye on, that if we succeed in putting an end to the 
threat posed by AQI that this could result in a change in the 
calculus of the people who we have allied ourselves with.
    And a second point on this fact. I think we should have no 
illusions about the people who we are dealing with. One reason 
I think that the tribal awakening has been so successful in 
rolling up AQI in the areas that they have operated in is 
because in the past many of them belonged to Islamo-nationalist 
insurgent groups that served as facilitators or co-belligerents 
with the al Qaeda people and they know exactly who these people 
were. And therefore they were able to go after them and roll 
them up.
    And this is, for them, a tactical alliance of convenience 
and we should have no illusion about it. Again, I think what we 
are doing is right and well and it has borne remarkable 
successes, but, again, we have to recognize that this is for 
them most probably a tactical alliance of convenience.
    As for the surge, I think one of the things that is the 
cause of the success of the surge is not just that we have been 
able to increase our force footprint, which went against the 
previous strategy we were pursuing, by putting an additional 
five brigade combat teams into Iraq. But, by putting these 
units out at the local community level, we transformed the 
local psychological environment.
    One brigade combat team commander said to me, when people 
saw that we were coming into their neighborhoods and we were 
there to stay, their attitude toward us changed and we were 
able to achieve a new level of cooperation with them and the 
intelligence started pouring in.
    And I raise this simply because if we are going to start 
drawing down, this could result in potentially a reversal or a 
change in the psychological environment again in a way that is 
adverse from the American point of view. And we have to figure 
out ways to prevent that from happening.
    I think it is also something to consider for the next 
administration, whoever gets elected president. Keep in mind 
that Iraq is still a dangerous place. There is still a fairly 
significant level of violence going on there. There are still 
insurgent groups that are attacking coalition and Iraqi forces.
    And I think in part their willingness to continue the 
struggle is based on the calculation that there is a good 
chance the new administration might change its policy and pull 
out. And therefore they would like to take credit for pushing 
the United States out.
    And I think it is vitally important that a new 
administration reassert its commitment to the security of Iraq 
and in that way perhaps alter the calculus of these groups to 
realize that they are going to have four more years of hard 
combat against the U.S. Army and the Iraqi security forces. And 
that might cause them to reconsider their commitment to what 
they call armed struggle and maybe reconsider negotiations and 
going down the political path. Again, the psychological 
environment and what we do and how that affects the 
psychological environment is very important.
    Taking on Shiite militias, again, the focus in the press 
has often been on operations against al Qaeda, but we have been 
operating against the special groups that were supported by 
Iran, as well as Mahdi army cells that were involved in 
sectarian cleansing in Baghdad. And that was indeed a major 
factor accounting for the decision by the Jaish al Mahdi to 
stand down in August.
    In addition, I think there are indications that they were 
starting to lose support among their support base. Again, that 
is something that could change in the future if circumstances 
were to change on the ground.
    And then, finally, a diminished flow of foreign fighters, 
at least in part due to efforts by the Syrian government, and 
that is also an important achievement to preserve.
    In sum, I think the essence of our success is due to the 
fact that we were able to neutralize the main drivers of the 
escalating civil violence in Iraq prior to the surge, AQI 
suicide bombings on the one hand and the ethnic cleansing and 
revenge killings done by Jaish al Mahdi cells. By clamping down 
on both of them, we were able to kind of deescalate this 
spiral.
    And it is important, there are a couple of policy-relevant 
conclusions that can be drawn from this experience of the last 
six months. First, while the U.S. presence may have stoked 
insurgent violence in Iraq between 2003 and 2006, the U.S. is 
for now a force for stability.
    Second, while some violence in Iraq is undoubtedly the 
product of random and revenge killings, it is for the most part 
neither spontaneous nor self sustaining. Rather, violence is 
used in an instrumental fashion by armed groups whose 
activities can be disrupted and whose decision calculus can be 
influenced by various military and nonmilitary means. And I 
raise that simply because there was a perception at the time 
when it looked like Iraq was slipping into a high-intensity 
civil war is that you can't stop these things once they get a 
momentum of their own.
    And I think the experience of the last six months shows 
that you can affect it in a decisive way, maybe not completely, 
but you can have a dramatic impact.
    In terms of preserving recent gains, clearly it is 
impossible to predict what impact the U.S. draw-down will have 
on the security environment. As I said before, because there 
are insurgent groups that are continuing to engage in violence, 
I think as we draw down they will continue to seek and probably 
find new opportunities to act. And, as a result, we have to be 
aware or be alive to the likelihood that we will see probably 
some kind of up-tick as a result of the violence being 
perpetrated by groups that have not decided to stand down yet.
    And there are a number of other factors which could occur 
which could complicate issues. And I mentioned before the 
collapse of the tribal coalition. We all start seeing now 
tensions among de facto tribal leaders in Anbar and elsewhere 
and the elected leadership of the Sunni community, which could 
erupt into violence.
    The Mahdi army could resume military operations. Tensions 
around Kirkuk could explode. And then there is the issue of 
internally displaced persons and refugees who might either 
resort to violence to retake their homes or might be met by 
violence if they seek to recover their homes.
    Some of these developments would have only local 
consequences. Others could have far-reaching implications and 
our ability to deal with them will depend largely on the 
success of the Iraqi security forces and taking up the slack as 
the U.S. draws down and on the political savvy and negotiating 
skills of Iraqi politicians and U.S. diplomats.
    Just a final point about accommodation or reconciliation. I 
prefer the term accommodation. Reconciliation sets a very high 
bar and if we look at other deeply divided societies around the 
world, Lebanon, Yugoslavia, Afghanistan, we see that often the 
process of reconciliation often takes decades. And, in many 
places, it has never occurred.
    So I think perhaps our focus should be on accommodation. 
That being said, I think we can look at the cases where 
inconclusive insurgencies or civil wars were ripe for 
settlement, and usually they become ripe for settlement when 
there are three factors present: one, a military stalemate that 
leads both sides to conclude that they cannot achieve their 
objectives by violent means; two, an emerging consensus among 
the belligerents of the terms of a settlement; and, three, 
authoritative leaders capable of speaking and negotiating on 
behalf of their respective constituencies.
    I would say that almost in just about all these cases none 
of these conditions are present in Iraq at this time, although 
I think we have seen signs of progress toward fulfilling some 
of these conditions during the last year.
    Just on the issue of authoritative leadership, I will just 
make just one point. It is very clear that even the ruling 
coalition now is increasingly fragmented. The ruling alliance 
in the Iraqi government is riven by all kinds of divisions. And 
even within each party there are divisions, there are issues of 
whether the party headquarters in Baghdad has control over the 
leadership in various provinces. And we see this with several 
of the parties.
    But I think it is important to mention that at the local 
level we often see that local leaders often retain sufficient 
influence to negotiate on behalf of their constituencies, and 
therefore local accommodations may be possible and in fact I 
think we are seeing them in some places, even if national 
reconciliation remains a distant, unattainable goal at this 
time. And I think this is something we can build on.
    In conclusion, I would like to say that while Iraq remains 
a dangerous place, the security situation has improved greatly, 
creating the possibility of political and economic progress in 
the coming year. Many challenges lay ahead and there is no 
guarantee that recent security gains can be sustained.
    But for the first time in a long time, there is reason to 
believe that an acceptable outcome may be feasible. The key is 
continued U.S. military and diplomatic engagement.
    An acceptable outcome in Iraq could, beyond its inherent 
benefits to the long-suffering people of Iraq, help 
rehabilitate America's reputation and reestablish its 
credentials in the Middle East and elsewhere as a reliable ally 
and force for stability at a time when the region faces growing 
threats.
    For this reason, as long as there remains a reasonable 
prospect for success in Iraq, no matter how modestly defined, 
it is vital that the U.S. work toward such an outcome and 
accept the risks and costs that a long-term commitment to the 
people and government of Iraq is likely to entail.
    Thank you.
    [The prepared statement of Mr. Eisenstadt can be found in 
the Appendix on page 133.]
    Dr. Snyder. Thank you, Mr. Eisenstadt.
    Mr. Skelton.
    Mr. Skelton. Thank you very much.
    Just excellent testimony, and I apologize, I must run for 
another engagement, but would like to ask one question and 
thank the chairman for calling this all-important hearing.
    Mr. Wilkerson, you used the phrase, ``war weariness.'' In 
1994, I had the opportunity to visit with two sergeants of the 
Royal Marines just outside Exeter in England. And they both had 
just returned from Bosnia, and both of them at the time agreed 
this conflict will end soon, because everyone is getting tired.
    Are we getting close to that in Iraq at all?
    Colonel Wilkerson. I think the polling that I have seen 
that the military has done, which is quite exquisite--much 
better, I might add, than most of the polling you see in this 
country, particularly with regard to the current campaign--
would indicate to me that there is a significant majority of 
Iraqis that want this crap to stop, and that if they saw 
something that looked like it was truly solid in stopping it--
and of course this leads one back to the Saddam Hussein type 
figure, the Putin type figure, if you will, they would support 
that.
    If they saw that the coalition was stopping it, if they saw 
that the government under Maliki in Baghdad was not a feckless 
entity, was indeed effective, they would support it.
    Now, whether or not that support would mean an instant 
cessation to violence, I don't think so. But I do think it 
would mean you would be on a track to some degree of stability 
and economy progress that would lead to that eventually.
    The question is, where is that entity? Where is that 
political entity that is going to convince this 70 or so 
percent of Iraqis who really don't want the violence, who want 
to lead a life, want to have a trade, want to have a job, want 
to have a home, want to have children and so forth, want to 
worship they way they want to worship?
    The median age in Iraq was 19. We should have been in there 
attacking that median age. I got so frustrated at the State 
Department I offered the minister of women's affairs a credit 
card, because the Iraqi government would not give her a budget, 
would not give her any money.
    This is a feckless government. That is the reason there is 
no political progress. And we had a little bit to do with that 
fecklessness because of the way we designed it and the way we 
put it together. But that notwithstanding, I don't see the 
current crop of characters as being capable of bringing about 
some sort of political progress that will appeal to this 
majority of Iraqis who want peace.
    Mr. Skelton. Thank you very much.
    Dr. Snyder. Mr. Davis for five minutes.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    One thing I would like to touch on, I think Dr. 
Krepinevich's comments brought back memories of sitting in 
military art classes at the military academy in the age of 
stone knives and bearskin. But the one concept that was pounded 
into our heads over and over was the concept of unity of 
command.
    And we spend a lot of time in the Congress creating our own 
form of greenhouse gases that don't necessarily add value 
talking about first and second and third-order effects of 
things that everybody in the country knows about but to keep 
political momentum moving in one direction, but often don't get 
down to root causes of the problems and really begin to address 
those.
    I would like to start with Mr. Wilkerson and preface my 
remarks from the standpoint that Congressman Davis and I formed 
a National Security Reform Caucus that we have gotten a lot of 
interest from a broad section of members. Chairman Snyder has 
certainly driven these efforts here in the Oversight and 
Investigations (O&I) subcommittee--to really find out what I 
see as process problems far more than personality issues--
although certainly the wrong personality in a broken process 
can really aggravate the situation.
    But we seem to be seeing root issues that relate back to 
things we saw in Grenada, things we saw in Panama, things we 
saw in Mogadishu, things we saw over in Bosnia and Serbia and 
certainly now. Only in those days the American public didn't 
pay attention to it because there was a relatively low price in 
human life associated with it.
    You have been in a very unique position, Colonel Wilkerson, 
having come up through the old forces command, seen that, the 
joint staff, come over to the State Department and witnessed 
probably all of this in every form of pain I am sure that is 
conceivable to imagine from an agency perspective.
    I was wondering if you would comment, and then I would like 
to open it up to the other gentlemen, as well, putting the 
personal issues aside that we have all seen, if you were king 
for a day, if we could amend the Constitution and you could 
make statutory changes, whether to organization and personnel 
policies or ways the agencies interact, to allow for a better 
integration of our instruments of power, so we are not always 
turning first to the Department of Defense or the military and 
really get back to a way to be better stewards of those 
resources.
    Colonel Wilkerson. I think you have hit on the 
organizational, institutional question of the opening of the 
21st century, in my view. I think we need a new national 
security act. I think we need a new legislative package.
    Mr. Davis of Kentucky. Jim Locker hasn't been to you yet.
    Colonel Wilkerson. Well, Jim and I have been together for a 
long time on this.
    Mr. Davis of Kentucky. Okay, I won't hold that against you.
    Colonel Wilkerson. A set of executive orders and other 
things that can be done without statute or executive orders. 
And I think it needs to involve this body, too. Your oversight 
alignment with the executive branch is just out of whack.
    Whether it is a joint security on national security that 
runs 150 and all the other budgets involved with national 
security together, I don't know. I am not expert enough to say. 
But I do know that what is happening right now is broken.
    For Secretary Powell, for example, to have to come testify 
to two different committees, one on state operations, justice 
and commerce and the other on foreign affairs and have the 
state operations and justice people asking more questions about 
foreign affairs than they do about the management of the State 
Department is just one indicator of how oversight is just not 
right.
    I realize the committee chairman are not going to give up 
their posts and so forth, so that is a hard thing to tackle. 
But I think it is the whole structure that needs some 
amendment, needs some reform, needs some reshaping.
    That said, if I were king for a day, the first thing I 
would do is change this $0.5 trillion, $0.75 trillion with 
supplementals, going to DOD, as opposed to $35 billion going to 
State. That is unconscionable in my view.
    That just says you have militarized your foreign policy. 
You don't have diplomats.
    One of the things Powell did right off the bat was go with 
his bona fides before you, the Congress, and get the money 
necessary to hire 1,103 over his 4 years new foreign service 
officers. That doesn't sound like much, but that is a fifth of 
the corps.
    And now that has been completely consumed by Kabul and 
Baghdad. They don't exist anymore. And so now the State 
Department is back to the same thing again. It is trying to 
double fill, triple fill. Somebody is having to do three jobs, 
two jobs and so forth. That is the first thing I would do.
    The second thing I would do, if I had the authority and I 
was going to do it really fast and I wanted to impact this, the 
failed states and the kind of things we are seeing in 
Afghanistan, increasingly in Pakistan and Iraq of the future, 
then we need something like a unified command, headed by a 
civilian with a military deputy, with $3 billion or $4 billion 
in their pocket to start with, not appropriated on an annual 
basis, for prevention, and in the event prevention fails, 
crisis management.
    And that command would eventually, because of it being at 
the place where the rubber meets the road, attract the creme de 
la creme from the bureaucracy, all across the interagency. It 
would also attract development dollars and so forth. It would 
probably do away with the U.S. Agency for International 
Development (USAID). It would do away with the Millennium 
Challenge Corporation.
    It would suddenly become that entity that everybody wanted 
to work in, much the way Goldwater-Nichols did for the joint 
staff. It would suddenly become first rate and cooperation with 
the interagency that was posited under its command, under its 
leadership, would be great.
    That is what I would do.
    Dr. Snyder. Mr. Davis, I am next. I am going to yield my 
five minutes to you, and you can continue it with the other 
three witnesses.
    We will start the clock. You have got five more minutes.
    Mr. Davis of Kentucky. Thank you very much, and we would 
like to follow on this dialogue at a separate meeting, if that 
would be possible, because we are working on it.
    Thank you very much, Mr. Chairman. I appreciate your 
deference. I would like to recognize Dr. Krepinevich.
    Dr. Krepinevich. Just a couple of observations. I just 
talked to someone who came back from Afghanistan. We have two 
two-star commanders there. One is General Sanchez, who 
essentially is responsible for tactical operations, and also 
General Cohen, who is responsible for training and advising.
    Cohen doesn't report to McNeil. He reports to Admiral 
Fallon, whereas Sanchez reports to both McNeil and Fallon. We 
have three Combatant Commands (COCOMs), Special Operations 
Commund (SOCOM), European Command (EUCOM) and Central Command 
(CENTCOM), involved in operations in Afghanistan. And to a 
certain extent, I think perhaps we need a Goldwater-Nichols 
two, but I think this is also reflective--you go back to 1983 
in Lebanon, one of the triggers for Goldwater-Nichols one was 
the convoluted chain of command that existed in the run-up to 
the attack on the Marine Corps barracks there.
    So, in a sense, we have met the enemy, and he is us. There 
is no reason that these things can't be sorted out, I think in 
terms of the unified----
    Mr. Davis of Kentucky. If I could just reclaim just a few 
seconds----
    Dr. Krepinevich. Yes.
    Mr. Davis of Kentucky [continuing]. Just to emphasize a 
point. I mean, when I look at State, forgetting the severe 
personnel differential, our military commanders become 
proconsuls in effect, which I think is a very dangerous 
precedent for the future.
    But, more to the point, I am concerned--I did a tremendous 
amount of organizational consolidation and process improvement. 
You have got four State Department bureaus and one CENTCOM 
commander, is immediately a recipe for a ripple effect of grave 
concern.
    Dr. Krepinevich. Well, it is also interesting I think that 
State is, and Mr. Wilkerson can probably correct me, my 
understanding is that they are increasing the number of State 
Department representatives that work now with the COCOMs. So in 
a sense they are there now to support the COCOM as sort of the 
regional diplomat in chief.
    Second, something else that doesn't require legislation. 
When we sent large numbers of advisers to Vietnam in late 1961, 
President Kennedy established something called the special 
interdepartmental group, counterinsurgency, that was going to 
bring together the efforts of the various departments and 
agencies, because these kinds of operations have a strong 
reconstruction, diplomatic, intelligence, as well as a military 
effort. And budgets have to be redirected and so on.
    Lieutenant General Doug Lute is very capable, but he has 
nowhere near the stature that Maxwell Taylor and the 
president's brother, Robert Kennedy had. And they were in 
charge of that group. And that is when we had about 10,000 
advisers in Vietnam, not 160,000.
    Third----
    Mr. Davis of Kentucky. Have you seen Lute's War College 
paper?
    Dr. Krepinevich. I am sorry?
    Mr. Davis of Kentucky. Lute wrote a paper in 1997, 
foretelling this issue that we are experiencing now, based on 
the very examples that----
    Dr. Krepinevich. And now he is getting to live it. Doug and 
I taught together at West Point many years ago.
    Third, getting back to what Mr. Wilkerson said, in 1964, 
when things were heating up in Vietnam, President Johnson did 
send Ambassador Maxwell Taylor there and essentially told him 
he should organize that country as a mini National Security 
Council (NSC) in terms of his diplomatic corps and also the 
military.
    And I think you are right. For this kind of an endeavor, 
you need the ability to set priorities and make trade-offs 
between various elements that won't naturally make it 
themselves, so not only at a national level, but at a regional 
and a country level.
    Another point, I think, and it is the final one I will 
make, is this hearing is about strategy, and yet it seems to me 
strange that oftentimes it is Congress that has to in a sense 
direct or request, whether it is the Quadrennial Defense Review 
(QDR) or something else, an administration to conduct a 
strategic review.
    You go back to the early days of the Cold War and the best 
strategy that has been put together by this country since 1945 
was at the initiative--it didn't require legislation--the 
initiative of the Truman administration that produced NSC 68 
and the Eisenhower administration that produced the so-called 
Solarium Project.
    So I think to a great extent it is not so much legislation 
that is lacking; it's leadership.
    Mr. Eisenstadt. If I could just jump in on this, I think 
one of the major failures as a country of the United States 
since 9/11 is our failure to mobilize the Nation for this war 
effort. And there are two components of this problem, one of 
which has already been alluded to, that basically the military 
is shouldering a disproportionate share of the burden of 
conducting operations in Iraq and Afghanistan and elsewhere.
    The second component, though, is the failure to really, I 
mean, mobilize the human wealth in our nation. I mean, we are 
an incredibly rich nation, not just in material terms, but in 
terms of human resources. And, by and large, the civilian civil 
society has not been called upon, or has not been mobilized, 
and the talents in civil society have not been tapped by our 
Federal Government.
    Now, one idea that has been floated to remedy these two 
issues is the idea of a civilian reserve corps, which I would 
urge be investigated further. There was an idea that was 
floated in an op-ed in the ``Washington Post'' a month or two 
ago about creating a civilian reserve corps of about 5,000 
people, but consisting of people from civilian government 
agencies who would be deployable and be available to deal with 
contingencies.
    And I would add that that is only half the problem and that 
is not really enough. And I would urge that consideration be 
given to a civilian reserve corps that is much larger and that 
taps into the talents and resources of our civil society. And 
in the case of Iraq and Afghanistan, I think we could have 
benefited greatly, had we had such assets available.
    And this is a way also for dealing with an important 
problem in American society, which is the growing gap between 
the government and the people. And therefore I would just urge 
that perhaps Congress give greater attention in the future to 
this idea. But go beyond just looking at how do we get 
civilians from government agencies to help the military, but 
how do we mobilize the American people in support of these 
operations overseas.
    Dr. Snyder. Mr. Akin's opening statement, without 
objection, will be made part of the record, his written 
statement.
    And, Mr. Akin, for five minutes.
    Mr. Akin. Thank you, Doctor.
    I had a couple of thoughts, hearing your testimonies, and I 
heard the word serendipitous a bunch of different times. And of 
course there are many things in life that you can't always 
predict.
    It seems to me, though, that there were some things that 
the Administration did right. The first one was to show the 
resolve to stay there and be a player. If we weren't staying 
there, if we were busy trying to cover our rears as we are all 
running, that things wouldn't be the way they were.
    The second thing is that I am aware from talking to General 
Allen about the Marine portion over in the Anbar Province, it 
wasn't just coincidence that some of these sheiks stood up. He 
effectively went out like a football recruiter, went over to 
Jordan, and talked some of these guys into coming back, at 
tremendous risk to those sheiks' lives, to assume the 
leadership for the geographic areas that made up part of Anbar 
Province.
    So it leads me to the conclusion that when you have 
extremely competent leadership, it is surprising how luck seems 
to be more of a factor, not that there weren't a lot of factors 
that were going on that were certainly outside of our control.
    I appreciated most of your testimony, agreed with most of 
it, from what I have been able to see. One question, though, 
and that was for you, Mr. Wilkerson, and that was it seemed to 
me one of the most encouraging things that I have seen was 
actually political, but not political the way those of us that 
work in D.C. think.
    It always concerned me right from the get go in Iraq that 
the emphasis is all on parliament. We are all a bunch of belt-
line big government nuts. And the thing that impressed me was 
the standing up of the local communities and the local 
governments and the guy's son agreeing to join the local police 
force and those local communities starting to take some charge 
of their own fate and destiny and policing their own 
neighborhoods.
    It seems to me that that ground-up basis for a federalist 
solution over there was tremendously encouraging, even though 
the parliament just sits there and appears to do nothing. I 
suppose maybe they have made more progress than the Congress 
has, but not very impressive anyway.
    But it seemed to me that there is good political progress 
at the local level and that if we could in some way do a sort 
of a limited government thing in parliament that guarantees 
certain basic issues, things like health care or police and 
this and that can be done in those local provinces. And then if 
we could guarantee them some source of revenue that is not 
controlled by the central government politicians, that we might 
be well on the way to being able to consolidate some of the 
gains.
    So, I am not an expert. You guys are. But I am not short of 
opinions, so I would appreciate if you would respond in either 
category.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 99.]
    Colonel Wilkerson. Well, I don't disagree with what you 
said. And, in fact, Seth's remarks yesterday to me were, as I 
said, quite saddening, quite disheartening, to me to hear him 
say that. There has been some progress, and it has been largely 
the way you say.
    There has even been some progress--I would say maybe the 
glass is maybe a tenth full now, rather than being empty. The 
revenue that is going out now is sort of an oil sharing, 
because most of that revenue comes from oil, that is going out 
to the provinces, is happening. And it is happening largely 
because they finally got around to doing it.
    And what you say about the local councils and villages and 
mayors and things like that is important. I think it is more 
important, though, if what you are shooting for ultimately is a 
Kurdistan, a Mosul, a Baghdad, a Basra, and you are not 
shooting for some entity in Baghdad that is going to largely be 
allied with us, or at least friendly to us, and be in control 
in some significant ways, at least, of these three or four 
outstanding provinces.
    Many--not many, but some--have proposed that solution and 
have said that is what we should do. If that is the political 
resolution you are looking for over the next 10 years or so----
    Mr. Akin. Could I stop you? My only point was I am not into 
the carving it up in separate countries, that kind of thing. 
All I am simply saying is if federalism is going to work, if 
the money all comes from the central government, then the 
central government is going to control everything. Unless you 
can fund local provinces, some way cascade that money to them 
without the parliament pulling the strings, you are not going 
to be able to have that level of federalism which potentially--
federalism to me doesn't mean different countries. It just 
means a series of states working together.
    Colonel Wilkerson. I think my understanding of the 
pressures there and the tensions there would be that that is 
probably what you would wind up with, certainly in the north, I 
think.
    Sulaymaniyah is prosperous now. One of my Central 
Intelligence Agency (CIA) friends told me the growth rate there 
is about 12, 13 percent now, doing well, really doing well. 
They don't want to disturb that. That is the reason recently, 
with Gates and Rice working with them, they have tacitly agreed 
to let the Turks take on the Kurdistan Workers' Paty (PKK), a 
major accomplishment.
    And, as a result of that, our relations with Turkey are on 
the upswing again. So I compliment Secretary Rice and Secretary 
Gates on finally doing that. But that again reinforces that 
that is Kurdistan, really. They don't have any care for the 
rest of Iraq except that they want them to stay away, 
particularly Arabs.
    So I don't know how you get away from that eventual 
happening if you let it start in that sort of significant way. 
And maybe that is the solution we should be looking for. I 
don't know. It is not the one we professedly are looking for.
    Mr. Akin. I wasn't suggesting that the army works at a 
local level. I would keep the defense under control of 
parliament. I am just talking about local police.
    Colonel Wilkerson. The Kurds have their own army.
    Dr. Snyder. Mr. Cooper for 5 minutes.
    Mr. Cooper. Thank you, Mr. Chairman. Excellent testimony.
    From the standpoint of the Armed Services Committee, the 
most striking testimony we had today was Colonel Wilkerson's 
statement that for the first time we have competent generals in 
Iraq. What an indictment, years into a war. For the first time, 
to have competent leadership.
    Dr. Krepinevich said earlier that perhaps the Army would 
rather keep its personnel policies than to win the war. Those 
are two very powerful and penetrating statements that to me 
speak of hardening of the arteries of the upper ranks of the 
military, in ability to select the most powerful people for the 
job, inability to keep the talented people that we do find on 
the job so that we can succeed in this conflict.
    I hope that we can reform the Pentagon and do the things 
necessary so that we don't have to wait five or six years into 
the next conflict before we get the appropriate leadership at 
the top.
    Do either of you gentlemen have specific suggestions for 
things that we should be doing, as this committee, to try to 
improve the leadership in the upper ranks?
    Dr. Krepinevich. I am sort of repeating myself, but it 
really does come down to leadership.
    Mr. Cooper. Are we not developing enough leaders? Or are 
the right leaders not being included?
    Dr. Krepinevich. I think we are struggling to catch up in 
terms of this kind of warfare. When this war began, we 
essentially had no doctrine for counterinsurgency. It was as 
though we decided after Vietnam we are getting out of this 
business and we are not getting back into it.
    Mr. Cooper. It is the sixth Muslim country we have helped 
rebuild in the last dozen or so years?
    Dr. Krepinevich. Certainly if you go back to the early 
1990's and you could say, we are in Somalia, we are in Haiti, 
we are in Bosnia, maybe we ought to start thinking about 
irregular warfare in a serious way once again.
    Again, I really do think there is a leadership issue here, 
and it is not to impugn the leadership of----
    A Protester. Where are the Iraqi voices? Where are the 
Iraqi voices?
    Dr. Krepinevich [continuing]. Of the Army in terms of their 
patriotism or their dedication to duty. However, there were in 
the early days of World War II, General Marshall fired four 
Army corps commanders. In I think at least two cases, it wasn't 
because they were incompetent, it was just because he thought 
he had better people.
    There was a certain ruthlessness, a certain seriousness of 
purpose, about what we were involved in. And somehow we seem to 
have lost that. And I think we lost it long before Iraq.
    I once talked to interview General Westmoreland, and I 
said, General, the standard tour for a company commander in 
Vietnam is six months. I said, in those cases where a company 
commander has been able to serve longer, his casualty rates go 
way down, his effectiveness goes way up. How could we justify?
    And his response to me was, we didn't know how long the war 
was going to last. We didn't want to create two classes of Army 
officers, one that had combat command and one that didn't.
    And, again, it was the personnel needs, the career needs, 
before the needs of the country, almost before the needs of the 
soldiers. And I have approached General Petraeus on one 
occasion, after he had just come back from training the Iraqi 
security forces. And, again, great soldier doing a terrific 
job. And I said, Dave, what are you doing back in Washington? 
And he said, well, come on, Andy, I have been over there for a 
couple of years now.
    And I said, well, given the importance of the job, if you 
weren't the best guy for the job, you shouldn't have been 
there, and if you are the best, you shouldn't be here. I have 
gotten answers, well, he has been over there for a year or so. 
We need to bring him back. He is exhausted.
    And I said, is he really exhausted? I said, wasn't there a 
guy named Washington who was in the field from 1775 to 1781, 
for 6 years, no helicopter, no palace to sleep in at night. You 
think he had it rough?
    Again, at the end of the day, you have to ask yourself as 
an institution, what kind of weight are we putting on trying to 
achieve our war aims as opposed to the health of the 
institution?
    And in terms of legislation, it is worth talking to General 
David Barno, who commanded in Afghanistan. And General Barno 
said, Goldwater-Nichols--he said General Marshall in World War 
II, his in box, he had to worry about two things. He had to 
worry about the Army as an institution, and he had to worry 
about winning the war.
    He said Goldwater-Nichols makes it so General Petraeus 
worries about winning the war and General Casey worries about 
the institution of the Army. And he said it is not always the 
case, in fact, in many times it has not often the case, that 
those two gentlemen will agree, because Petraeus is willing to 
risk breaking the Army to help win this war and Casey's job is 
to preserve the Army and to preserve the morale of the officer 
corps.
    So on a number of occasions, we have set up a situation 
where these people are working at cross purposes from one 
another. But at the end of the day, I think it goes back to--
and it is too bad Mr. Skelton isn't here--I think it goes a 
fair way back to how we train these people to think about war, 
how we train our senior leaders to think about strategy and 
what is needed to succeed and also a seriousness of purpose.
    And I don't quite know how you instill that in people, but 
it seems as though we have lost a good part of that.
    Dr. Snyder. Mr. Spratt for five minutes.
    Mr. Spratt. Thanks very much for an excellent presentation 
and super testimony from all of you. I am the chairman of the 
Budget Committee, and it sort of surprises me, even after this 
many years, to sit through the discussions of these issues 
without any consideration at all being given to the budgetary 
consequences of what we are doing.
    Now, I am not so mundane as to say that is the most 
important matter, but as it approaches--exceeds $500 billion. 
We got testimony today from The Congressional Budget Office 
(CBO). Their estimate of the cost of Afghanistan and Iraq since 
the inception is about $691 billion to date. They have a model 
for estimating what the cost will be if we stay there in 
smaller numbers. Their estimation is we draw down gradually to 
75,000 troops in both theaters, Afghanistan and Iraq and stay 
at that steady state from 2013 through 2018, the last year of 
their projection.
    The cost is about $1 trillion. Those are consequential 
numbers, consequential for the Defense Department, for the 
defense budget and for the country's infrastructure, all of the 
needs we have got, which are highlighted by the economic 
situation we have got on our hands right now.
    We have been able to buy into this without taxing the 
American people one penny for the effort and largely on the 
assurance of the president's rather facile argument that we 
will stand our troops as their troops stand up. I have been 
over there five times now, I think, including before the 
current war, and I am just dismayed to see that we have not 
been able to put in the field 135 battalions that we have 
trained and taken full advantage of the fact that we have 
supposedly got an Iraqi army now that can begin to assume more 
and more responsibility for our troops.
    Is that happening? If not, we had an Iraqi defense minister 
here a week ago who says we will need to stay there in 
substantial numbers until 2012. The cost of that is enormous, 
and it begs the question.
    Dr. Krepinevich, you just mentioned Marshall. I have been 
reading Rick Atkinson's latest book and the previous book as 
well, and, my God, it is amazing how bad the generalship in the 
United States Army was as we were learning the hard way and 
losing casualties and making tactical mistakes up and down.
    But when General Marshall took office on September 1, 1939, 
he went down to thank the president for his appointment but 
told the president, Mr. President, I want you to know, I am 
very proud to take this job, but I want you to know, I am the 
commander in chief of the 17th-largest army in the world. In 
two years, he was no longer the commander in chief of the 17th-
largest in the world. He was commander in chief of the army 
that, along with the Russians on the Eastern Front, won the 
second world war.
    Why can't we shape these forces up? Is it ethnic divisions 
that still run through the Army? Is it corruption? Is it 
because we aren't putting them in the field where they will get 
battle hardened? What is the answer to that? Why can't we field 
an army that is adequate to bring security to the country 
sooner, rather than later?
    Colonel Wilkerson. Let me take a shot at it and then anyone 
else, of course. Your first part of your question, one of the 
reasons I do all three of my seminars at William and Mary and 
The George Washington University, I make my students deal with 
resources. They don't like it. They are not economists, by and 
large. They don't like it, but I make them deal with resources.
    The last president of the United States to put an addendum 
on every national security decision document that told him what 
the estimate of his decision was going to cost the Nation was 
Dwight Eisenhower. Haven't done it since.
    You are absolutely right. This----
    Mr. Spratt. That is an interesting point. I would love to 
see that made part of the War Powers Act.
    Colonel Wilkerson. This is another dimension of what I was 
talking about yesterday with Seth and with Michael O'Hanlon on 
the radio. This new president, in January 2009, is going to 
have a fiscal situation that I believe is quite powerless. And 
to continue to put this money out at the rate we are putting it 
out now, or even close to the rate we are putting it out now, 
is going to be virtually impossible.
    So that is another constraint on the time we have left 
remaining to exploit these opportunities that we have got. Your 
point is genuine from both perspectives. We never think about 
it, and it is critical.
    On the other point, I will identify myself with what was 
said over here by my colleague, but I will also tell you that I 
had seminar after seminar at the Marine Corps War College. And 
Senator Hagel and I have had particularly poignant discussions 
about this, and generally speaking we were doing 
counterinsurgency.
    I mean, we were in Pristina in 1994. We were in Southwest 
Asia doing--we put troops on the West Bank to police a 
settlement in the Israeli-Palestine situation. We did really 
remarkable things, but let me tell you that not very many of 
those lieutenant colonels who stood out in that environment got 
promoted to general. And I had Marines, sailors, Air Force 
officers, one Coast guardsman and a number of other service or 
affiliates in reserves, national guard and so forth in my 
seminars.
    Why? I asked myself. Well, I know the reason. It is what he 
said, but he just didn't want to go aggressively about that. 
The personnel system runs my Army, and the personnel system is 
not geared to producing people like David Petraeus. They sneak 
through.
    Dr. Biddle. On the question of the Iraqi security forces 
and whether or not they can take over for us, there are a lot 
of challenges, equipment training, logistics, leadership, all 
that. The binding constraint is not their proficiency, it is 
their politics.
    They are in the middle of an ethnic and sectarian civil 
war. They inherently consist of people drawn from ethnic and 
sectarian communities and are subject to the same kinds of 
centrifugal pressures that the rest of society is. If the 
society is breaking apart into factions, you can't reasonably 
expect that we are somehow going to create a disembodied, free-
floating entity that is divorced from the society from which it 
is drawn that is somehow disinterested and nationalist.
    I think because of this I think it is unrealistic to expect 
that until and unless the underlying sectarian civil war that 
is Iraq is resolved that we are going to be able to create an 
Iraqi security force that can take over for us. Given that, I 
think what we are looking at in the near-term future is an 
Iraqi security force that can provide essentially a roll not 
unlike that that the concerned local citizen groups and Anbar 
awakening councils are providing. They can defend their own.
    Shiite Iraqi Security Forces (ISF) units are very effective 
in defending Shiite neighborhoods. Sunni ISF units and the few 
nationalist, disinterested subsets, are capable of defending 
Sunni areas. By and large, they are not capable of defending 
people not of their sect.
    That is I think centrally why if we are going to get 
something that looks like stability in Iraq it is going to 
require a long-term stay by us. We are the only party in the 
country that now, and I think for quite a while, is not viewed 
by someone as a threat of genocide.
    And I think that is not a problem that we can readily fix 
by amping up training budgets, amping up advising efforts. 
These are good things in a variety of ways, but there are 
substantial limits on what they can accomplish, given the 
nature of the war in which this is taking place.
    Dr. Snyder. Mrs. Davis for five minutes, and then to Mr. 
Conaway and then to Mr. Johnson.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman. And I am not sure if I am going to repeat anything 
that has gone on. I am sorry I had to leave the room for a few 
minutes.
    You talked about the chain of command and the fact that it 
wasn't really clear, I think, Dr. Krepinevich. I have been 
studying that, too, so I thought I was going to get it right.
    I actually heard that in a trip to Afghanistan a few days 
ago, the confusion there. And so where will this come from? I 
mean, how will this change?
    Dr. Krepinevich. Well, it is within the power of the 
Defense Department to change the chain of command. They have 
something called the Unified Command Plan (UCP), where they sit 
down and they say, okay, this is how we divide up the regional 
commands.
    Right now, for example, you have one combatant commander 
who is responsible for Pakistan, another one who is responsible 
for Afghanistan. And then you have the special operations----
    Ms. Davis of California. Part of my question, is there a 
recognition that this is a problem and that people want to 
solve it?
    Dr. Krepinevich. Well, I certainly think, yes, there is a 
recognition that it is a problem. And the question is, how hard 
do you want to push in order to change things? And most 
organizations, most individuals, once they have power and 
authority and responsibility and budgets, don't like to give it 
up.
    And this part of the world, there has always been this 
interesting debate about, well, we need India and Pakistan 
together because those two countries are often at odds with one 
another, so you peel off Pakistan. In this case, you have got a 
conflict, as I mentioned before, that really transcends several 
commands. And do you reorganize yourself in order to be able to 
conduct operations more effectively?
    And, of course, once the president, I believe it was, or 
maybe it was Secretary Rumsfeld, designated the special 
operations command as the principal command involved in the 
global war on terror, then these other commands are supposed to 
support the special operations command, so you have got that 
layered in, as well.
    And as Mr. Wilkerson mentioned, there is a similar problem 
in terms of the diplomatic side of the house, and then you have 
got the problem of integration. Since the military content of 
an operation like the invasion of Iraq is very high, the 
military content of counterinsurgency or stability operations 
relative to intelligence and reconstruction and diplomacy is 
relatively low, and it is much more balanced.
    And so it becomes very important to be able to integrate 
that under an individual who has responsibility, can make 
trade-offs and can force compliance so that you can actually 
execute a good strategy when you have identified one.
    Ms. Davis of California. I know that my colleague, Geoff 
Davis, mentioned the interest and the work that we are trying 
to do, raise the issue on the interagency, and a lot of members 
have talked about this. Some are addressing it through 
different kinds of legislation. What would it look like if the 
Congress actually were to cross jurisdictions and help build 
the capacity in these different areas to do that?
    In your estimation, where is the greatest--aside from the 
culture and getting there, I mean, is there a part of this that 
you think would be the most difficult to focus on? Not just 
you, Doctor, but everybody. Where is the least capacity, and I 
guess in one way the most capacity? How do we do that?
    Colonel Wilkerson. I will describe to you what I saw that 
was the most effective interagency operation in my 40 years or 
so association with the government, military or otherwise. And 
it was essentially--I can't talk about it in great detail, but 
it was essentially 70-plus people as disparate as the Secret 
Service and the Department of Commerce, State, Defense, others, 
agencies, departments, bureaus, all working together to come up 
with a real plan to clandestinely go after North Korea in 
certain very key areas. Very successful effort, in fact, 
incredibly successful.
    Did it ever come to any real fruition? A little bit, not 
much, because it ran into diplomacy, it ran into real power 
issues and so forth and so on, which was good.
    Why was that so different from what I saw in Iraq and what 
I have seen in Somalia and a number of other places? It was 
principally different because the people working in the 
interagency group were first of all experts in their areas. 
They were not possessed of huge egos and they were out of the 
attention of those who were and, generally speaking, their 
technological and functional expertise was so exquisite that 
their pachyderm bosses didn't have a clue what they were 
talking about. And so beneath the screen, so to speak, they got 
things done.
    When you throw egos, and you throw the big 800-pound 
gorillas, into the arena, fully aware that their way is best, 
and you have a leadership that is unwilling to knock heads 
above that and to make people do what they should be doing, it 
is a very different situation. Can you improve that?
    To a certain extent, I agree with the doctor here that 
leadership is the key. Leadership is the key. It is the key, it 
is always the key. But you can improve the organizational 
structure beneath that leadership in order to give that 
leadership in an increasingly complex decisionmaking 
environment.
    The challenges of today are nothing like the challenges of 
the past, in my view, in complexity. You can increase that 
decisionmaker's ability to make better decisions. And that is 
what I think the group that he was referring to, Jim Locher's 
group and others, are striving for, is that institutional 
reshaping that would give decisionmakers a better opportunity 
to make good decisions and then, more importantly, probably, 
have them executed reasonably, the way they ask for them to be 
executed.
    State and Defense are at the very peak of that. You fix the 
relationship between State and Defense and the others will 
follow.
    Dr. Snyder. Mr. Conaway for five minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    How long ego--it is probably a little difficult.
    Dr. Snyder. Mr. Conaway, could you pull your microphone in? 
I know it is kind of pointed.
    Mr. Conaway. We did a little infrastructure work on the 
Armed Services Committee so that this clandestine 70 people 
fixed North Korea?
    Colonel Wilkerson. No, no, didn't mean to say that. The 
plan that they put together would have been a marvelous 
accompaniment to diplomacy, had it been executed.
    Mr. Conaway. I am trying to blow up that 70-person working 
model that had the very brightest people that walked the face 
of the Earth, no ego, to a grander scale that would address 
Iraq or Afghanistan, or maybe Congress itself.
    Colonel Wilkerson. Good luck.
    Mr. Conaway. Yes.
    Dr. Wilkerson, you mentioned a new, grander bureaucracy 
that would I guess report directly to the president, that would 
include SOCOM, all the capacity of the Department of Defense 
(DOD), all the capacity of the State Department, every power 
that the Federal Government has, within this one organization. 
Once that is established and you create a new turf, how do we 
realistically keep it from migrating to exactly the 
circumstance we have today?
    I am not a fan of replacing an existing bureaucracy with 
another bureaucracy that has got--if we could ignore the 
current turf, how do you overcome all of that and keep it from 
migrating back to the silos that we have right now?
    Colonel Wilkerson. Well, it is an excellent question. I 
could answer you in comprehensive terms and tell you that that 
is probably what you do with bureaucracy periodically anyway. 
You have got to rape, pillage and plunder it every now and then 
and reshape it, perhaps every generation, to get it to be a 
little less sclerotic and work a little bit better, but that is 
not the reason you do it.
    What I suggested, I think, first of all, would be based on 
a fundamental strategic decision that this is the way of the 
future. That is to say, failed states, and what looks like 
failed states, whether they are in sub-Saharan African, 
Southwest Asia or wherever, are the real strategic priority, 
not only of our armed forces, perhaps, but also of the 
interagency group.
    Mr. Conaway. Well, stopping right there, won't you always 
have a tension between the groups that are in and out of the 
failed state models?
    Colonel Wilkerson. Absolutely, absolutely. But what I am 
saying is, as Goldwater-Nichols did exactly what you said was 
impossible, because that is what Goldwater-Nichols did, it 
changed the entire bureaucratic arrangement of the armed 
forces. It did so by changing----
    Mr. Conaway. I heard Mr. Krepinevich say it is terrible 
today. It doesn't function. You have got bad leadership across 
the board.
    Colonel Wilkerson. I didn't say it was designed to produce 
great leaders. I said it changed the bureaucracy of the armed 
forces.
    Mr. Conaway. Okay. Let me go to Mr. Eisenstadt.
    A civilian reserve corps, given the experiences we had the 
last four, five years with the national guard and the struggle 
and the tension between a home career and then having to leave 
for, if you were in the Marines, seven or eight months, if you 
were in the Army, 12 to 15 months, and then come back and the 
impact that that has had, which is not particularly favorable, 
how do you create a civilian reserve corps in which people can 
continue to have an outstanding civilian career here in the 
United States, but also at the same time be ready to leave 
that, walk away from that job and force those employers to make 
the adjustment that they all have to make, to go do something 
somewhere else?
    Is that realistic in the real world?
    Mr. Eisenstadt. I don't have all the answers for you, sir, 
but I would just say that is one reason why I think numbers are 
important, so that is why numbers are important and that is why 
a civilian reserve corps of just perhaps 5,000 people is 
probably too small, so that you could share and spread the 
burden over a larger number of people.
    Having served in the Reserve for about 24 years now, I will 
just tell you that the challenges of creating a civilian 
reserve corps in terms of personnel management, which, if you 
want to talk about problems, I will just say just having as 
Reservists, I think the Reserve personnel system has a lot of 
problems and challenges attending to it.
    Mr. Conaway. But you still have--even though the Army has 
got a personnel system that Dr. Krepinevich says is part of the 
root of the problem, the personnel system, you still have to 
have a personnel system.
    Mr. Eisenstadt. Exactly, and that is one thing that I think 
people, before going down this route, they have to consider 
that there has to be career paths, there has to be professional 
education----
    Mr. Conaway. On which side?
    Mr. Eisenstadt. I am sorry?
    Mr. Conaway. On which side?
    Mr. Eisenstadt. On the civilian side, as well, and that is 
I think one of the things you hear often from military people, 
is that even within the Federal Government, whereas in the 
military there is a very well defined educational path that 
military officers in all the services have to go through, on 
the civilian side of the house, very often there is nothing 
analogous to that. And there is nothing analogous to doing 
joint billets or tours.
    Now I think my understanding is that there are efforts to 
put people from civilian agencies with other agencies with the 
military to create this sense of jointness within the 
government, and I think that is a desirable development. But I 
think with the civilian reserve corps, this has to be thought 
through very carefully and I would not underestimate the 
challenges and problems involved.
    But all I could say is this, that after 9/11, one thing 
that people asked me in various venues, what can we do to help? 
Our nation is facing historical challenges. We want to 
contribute, we want to be part of it.
    And there is no mechanism right now for a lot of citizens, 
unless they join the military, and that is not for everybody. 
Unless they join the military, there really is no avenue for 
them to contribute to the general good.
    Okay, you have emergency services. They could be volunteer 
firemen and emergency service personnel, but that is in their 
local community. If they want to travel overseas, they want to 
contribute to American commitments abroad, beside Peace Corps, 
there is just not a lot.
    Mr. Conaway. I am way past our time, but we have got all 
these civilian contractors in country working for the dreaded 
company, Halliburton or KKR or others, who found a way to get 
into the fight, and yet we have spent a lot of time criticizing 
because of maybe mismanagement or whatever. There are roles 
where we had civilians go into the fight providing certain 
functions, beyond peaceful----
    Mr. Eisenstadt. I will tell you, for a lot of people, and I 
will just say this in terms of myself, for certain people, the 
idea of serving in the government and not for a private 
contractor--and I am not knocking in any way the private 
contractors, because they have really done a very important 
service in Iraq. But I think a lot of people, the idea of 
Federal Government service has a sense of a certain mystique or 
appeal to it that is not the same as working for a contractor 
and there are--I would just also wonder if the economics from 
the government's point of view, how they work out contractors 
versus civilian reserve corps.
    The contractors I am not sure provide real economies in 
some areas, both in terms of in financial terms and in terms of 
their contribution to the situation on the ground. I mean, it 
has been brought up that in a counterinsurgency fight it is not 
clear that security contractors are a net benefit in that 
particular milieu.
    Dr. Snyder. Mr. Johnson for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Biddle, I am sorry, in your ``Washington Post'' op-ed 
piece, you cite the reduction in violence that has occurred in 
Iraq as a result of the troop increase, and you say that we can 
embellish upon this reduction in violence by negotiating a 
cease-fire, helping the parties negotiate a cease-fire. And 
then the U.S. can serve to enforce the cease-fire as the final 
leg, I guess, of that three-legged stool.
    Who would be the parties to negotiate the cease-fire? What 
parties would be bound by the cease-fire, in other words?
    Dr. Biddle. The cease-fire process is actually well under 
way already. There are over 200 currently existing cease-fire 
agreements in Iraq, mostly between individual Sunni groups and 
the local United States military leadership in their area, 
extended then to the U.S. Government and, to some degree, to 
the government of Iraq.
    But I would actually attribute much of the decline in 
violence that we have seen to the effects of the cease-fires 
that we have already put in place. And I think the----
    Mr. Johnson. These are agreements between the United States 
military and tribal factions, I guess you could say.
    Dr. Biddle. It varies widely. Many of them are tribal 
leaders. Others are not. Many of them are actually the 
combatant factions that had been shooting us until hours to 
minutes before the agreements were signed.
    So the particular parties to the agreement vary a lot from 
place to place within the country. I think, as a whole----
    Mr. Johnson. It is not an agreement between the Iraqi 
government and these factions.
    Dr. Biddle. That is correct, and you raise a very important 
point, which is this has mostly been independent of the 
government of Iraq and largely in spite of the government of 
Iraq, which by and large is very skeptical of this entire 
process. For a variety of reasons, centrally including the 
initial parties to engage in these cease-fire agreements were 
overwhelmingly Sunni and were former Sunni combatants, leading 
the Maliki government to fear----
    Mr. Johnson. Actually a threat to them.
    Dr. Biddle. Exactly, exactly.
    Mr. Johnson. Now, you recommend that we continue this 
trend. Let me hear from the other panelists, what they think 
about this.
    Dr. Krepinevich. I would agree with Dr. Biddle. Certainly, 
if you can take an enemy out of the fight who was killing 
Americans and trying to undo what we were trying to accomplish, 
I think that is a good thing.
    Now, do they share our values? I doubt in many cases that 
they do.
    Mr. Johnson. They do like our money, though.
    Dr. Krepinevich. They like our money, and we also have a 
common interest. As Mr. Eisenstadt was pointing out earlier, we 
had a common interest in that we both came to view, they later 
than us, al Qaeda as our enemy in Iraq. And they were willing 
to cooperate with us to help get rid of AQI in their 
neighborhoods, in their areas.
    I think you can't think of these cease-fires or these 
agreements as the kind of diplomatic arrangements you would 
enter into, say, with another country, or an alliance like we 
have, say, with Great Britain. I think you have to look at 
these groups and these arrangements as very dynamic in nature, 
if you will, subject to change on a moment's notice. But do you 
gain a tactical advantage by entering into these?
    Mr. Johnson. Short term, certainly. Long term, does it mean 
that we will continue to be trapped in Iraq with a government 
that is not reconciling with the various factions that we 
ourselves are negotiating with directly?
    Dr. Biddle. The short answer is yes. I think the model we 
are headed to, if this process continues and if it does produce 
something that looks like a national cease-fire, looks very 
much like Bosnia or Kosovo today, a situation in which weary, 
distrustful, fearful former combatant factions are willing to 
tolerate cease-fire arrangements but are worried that the other 
party might and the thing stays stable because an outside party 
remains to serve as a peacekeeper.
    I think that is actually the likeliest route, if we are 
going to get it, subject to all the uncertainties, to something 
that looks like stability in Iraq.
    Mr. Johnson. That pretty much means permanent bases in 
Iraq. It means we will have to maintain a certain level of 
troops there and a certain amount of money. Public money will 
have to be committed to that. Do you have any idea of what 
those numbers would be?
    Dr. Biddle. Well, let me give you the logic of it rather 
than the specific numbers, which require a good, solid study 
out of the joint staff.
    But the logic of it, I think, is someone outside the system 
is going to have to be there probably for 20 years. I think 
what you need to truly resolve the situation such that no 
foreigners are needed any longer is generational change, a 
group that wasn't scarred by this conflict rises to leadership 
age in Iraq.
    That doesn't have to be us the entire time. It is going to 
have to be us in the near term, because right now we are the 
only people who are willing to do this in quantity. If you were 
to get something that looked like stability, cease-fire and 
peace in Iraq, after a year or two of demonstration of that, 
historically there have been many actors around international 
system who have been willing and able to provide peacekeeping 
resources, especially if it becomes a United Nations (UN) aegis 
that is running this, rather than a relationship with the 
United States or with the government of Iraq bilaterally, who 
could take much of the burden off our shoulders.
    They are not going to do it, though, until and unless it 
becomes clear that this is an actual cease-fire and they are 
peacekeeping and not war fighting. The troop level required for 
this is hard to estimate, because the social science of 
peacekeeping is so weak, but the kinds of rules of thumb that 
people toss around are not unlike the rules of thumb that 
people use for counterinsurgency operations.
    Ideally, many people would like to see peacekeeping forces 
with about one capable combatant per about 50 members of the 
population, which gives you an unreachable, implausible, 
unreasonable troop count of about a half million for a country 
the size of Iraq. We are obviously not going to get anywhere 
close to that.
    If this is the model we want in Iraq, I think what that 
implies, though, is more is better than fewer and the right 
U.S. troop count for Iraq, especially once it becomes, if it 
becomes, a peacekeeping mission and not a war-fighting mission, 
is the largest force we can sustain there without breaking the 
military, with the hope that after two or three years of this 
we can begin to hand off more and more of these 
responsibilities to others, preferably under UN aegis.
    Mr. Johnson. Thank you.
    Dr. Snyder. Gentlemen, we appreciate you being with us 
today. Thank you for your time. I think it is interesting that 
this hearing on Iraq probably had as much discussion about 
interagency issues involving the civilian side of our 
government, but I think that is certainly crucial to the things 
of the future, if not crucial to what is happening today, and 
we appreciate your observations on that.
    The committee will be adjourned.
    [Whereupon, at 2:38 p.m., the subcommittee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                            January 23, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 23, 2008

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    
                                  <all>

</pre></body></html>
